<html>
<title> - REHABILITATION OF THE CHESAPEAKE BAY: HEALING THE BAY THE VOLUNTARY WAY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
REHABILITATION OF THE CHESAPEAKE BAY: HEALING THE BAY THE VOLUNTARY WAY

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2016

                               __________

                           Serial No. 114-58
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           
                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-657 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                         
                         
                         
                         
                         
                         
                         
                         


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

FRANK D. LUCAS, Oklahoma             MICHELLE LUJAN GRISHAM, New 
STEVE KING, Iowa                     Mexico, Ranking Minority Member
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
DAN BENISHEK, Michigan               SUZAN K. DelBENE, Washington
RICK W. ALLEN, Georgia               ANN KIRKPATRICK, Arizona
MIKE BOST, Illinois

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Kuster, Hon. Ann M., a Representative in Congress from New 
  Hampshire, opening statement...................................    11
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     3
    Submitted articles...........................................     4

                               Witnesses

Weller, Jason, Chief, Natural Resources Conservation Service, 
  U.S. Department of Agriculture, Washington, D.C................    12
    Prepared statement...........................................    16
    Submitted questions..........................................    41
Redding, Hon. Russell C., Secretary, Pennsylvania Department of 
  Agriculture, Harrisburg, PA....................................    18
    Prepared statement...........................................    21
    Submitted questions..........................................    41


REHABILITATION OF THE CHESAPEAKE BAY: HEALING THE BAY THE VOLUNTARY WAY

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2016

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300, Longworth House Office Building, Hon. Glenn Thompson 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Allen, Lujan 
Grisham, Kuster, Nolan, and DelBene.
    Staff present: Haley Graves, John Weber, Josh Maxwell, 
Patricia Straughn, Stephanie Addison, Faisal Siddiqui, John 
Konya, Anne Simmons, Evan Jurkovich, Nicole Scott, and Carly 
Reedholm.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. Good morning. This hearing of the 
Subcommittee on Conservation and Forestry, entitled, 
Rehabilitation of the Chesapeake Bay: Healing the Bay the 
Voluntary Way, will come to order. I am pleased to welcome our 
two witnesses today, two great champions for agriculture and 
rural Pennsylvania and rural America. I appreciate having them 
here as we explore today's topic.
    Over the course of the 114th Congress, the Conservation and 
Forestry Subcommittee has held a series of hearings to 
highlight the success of voluntary conservation by our nation's 
farmers, ranchers, and foresters.
    Today's discussion, Healing the Bay the Voluntary Way, 
takes a more focused approached to this discussion. The 
Chesapeake Bay, the largest estuary in the United States, is an 
incredibly complex ecosystem that includes important habitats 
and is a cherished part of our American heritage.
    The Bay's watershed includes all types of land uses, from 
intensely urban areas, spread-out suburban development, and 
diverse agricultural practices. But, unquestionably, the Bay is 
in need and worthy of our attention and concern. I believe that 
everyone has a role to play in restoring it.
    With the USDA's recent report on the improved health of the 
Chesapeake Bay, it is timely that the Committee should 
highlight the voluntary conservation efforts that are being 
implemented by producers. I want to be sure that the 
agriculture community receives the credit it deserves for 
engaging in voluntary practices and the reduced nutrient and 
sediment runoff.
    However, it has become increasingly clear that some 
government agencies and environmental activist groups, 
organizations ignore or otherwise discount the commitment our 
farmers, ranchers, and foresters make to environmental 
stewardship. The critics forget that farmers and ranchers are 
the original and best stewards of the land. Farmers and 
ranchers continually find new and innovative ways to reduce 
energy usage, reduce emissions, and sequester carbon while 
still providing America with an abundant and affordable food 
and fiber supply. This is something that critics conveniently 
forget, especially when discussing restoration of the 
Chesapeake Bay. The goal for all involved is the same, the 
continued health and vitality of the Bay, while the road to 
that health and vitality is being strongly debated.
    It is a clear choice: over-regulation and intrusion into 
the lives and livelihoods of those who choose to make the Bay's 
watershed their home or incentive-based programs that help 
restore and protect our natural resources.
    EPA and other regulators fail to realize that fear and 
intimidation is no way to govern. No two producers face the 
same natural resource concerns. Voluntary conservation 
initiatives are the only way to respond to natural resource 
concerns because they can be tailored to best address each 
concern.
    We have seen time and time again that top-down, one-size-
fits-all is the least effective solution to a country as 
diverse as this, certainly as diverse a watershed as the 
Chesapeake watershed is. Whether the farms are 2 miles or 2,000 
miles apart from each other, protecting our drinkable water 
supply, keeping nutrients in the soil for the next crop year, 
or maintaining a supply of forage for livestock, there is no 
shortage of reasons why we must continue to innovate when it 
comes to preserving our natural resources.
    In addition to the great work being done at the state and 
county levels, I am proud that so many of the farmers and 
foresters in Pennsylvania have taken voluntary steps in order 
to do their part to assist in the recovery of the Chesapeake 
Bay. The environmental gains they have achieved are a testament 
to our producers. I would also like to highlight the trust 
built between those who deliver the conservation programs and 
farmers who depend on their technical assistance. These 
invaluable relationships are the core of the voluntary 
conservation model, and I would strongly caution any agency or 
organization who wishes to change this model for success.
    It is very coincidental that the day before this hearing 
that will highlight USDA's report on the improved health of the 
Bay and the importance of voluntary conservation efforts of 
farmers and ranchers that the Chesapeake Bay program would 
release a press release agreeing that the Bay water quality is 
improving. However, they have a slightly different narrative.
    They begin the release with the following statement, ``The 
amount of nutrient and sediment pollution entering the 
Chesapeake Bay fell significantly between 2014 and 2015, 
helping improve water quality in the nation's largest estuary. 
Experts attribute this drop in pollution loads to dry weather 
and below-normal river flow, but note local efforts to reduce 
pollution also played a role.''
    EPA is so blatantly tied to their agenda against 
agriculture that the agency will give more credence to climate 
change than they do to successful efforts by agricultural 
producers. The data in USDA's report clearly prove that it is 
the conservation efforts by farmers and ranchers improving the 
health of the Chesapeake Bay.
    And, without objection, I would like to submit for the 
record the Chesapeake Bay press release that I noted on the 
Chesapeake Bay program, Chesapeake Bay Water Quality Improving, 
as well as an article that was in a Farming magazine, actually 
was shared with and given to me by some of the farmers in 
Pennsylvania. That is where you get your best information, from 
the folks who are on the farm doing the work. This is an 
article that says, What is the Cause of the Bay's Problems? 
This is by two farmers who are also biologists. And manure gets 
too much blame, farmer-biologists say.
    And, without objection, I submit those for the record.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good morning, and welcome to today's hearing. Over the course of 
the 114th Congress, the Conservation and Forestry Subcommittee has held 
a series of hearings to highlight the success of voluntary conservation 
by our nation's farmers, ranchers, and foresters.
    Today's discussion, ``Healing the Bay the Voluntary Way'', takes a 
more focused approach to this discussion. The Chesapeake Bay, the 
largest estuary in the U.S., is an incredibly complex ecosystem that 
includes important habitats and is a cherished part of our American 
heritage.
    The Bay's watershed includes all types of land uses, from intensely 
urban areas, spread out suburban development and diverse agricultural 
practices. But, unquestionably the Bay is in need and worthy of our 
attention and concern, and I believe everyone has a role to play in 
restoring it.
    With USDA's recent report on the improved health of the Chesapeake 
Bay, it is timely that the Committee should highlight the voluntary 
conservation efforts that are being implemented by producers. I want be 
sure that the agriculture community receives the credit it deserves for 
engaging in voluntary practices that reduce nutrient and sediment 
runoff.
    However, it has become increasingly clear that some government 
agencies and environmental activist organizations ignore or otherwise 
discount the commitment our farmers, ranchers and foresters make to 
environmental stewardship.
    The critics forget that farmers and ranchers are the original and 
best stewards of the land. Farmer and ranchers continually find new and 
innovative ways to reduce energy usage, reduce emissions, and sequester 
carbon while still providing America with an abundant and affordable 
food and fiber supply. This is something the critics conveniently 
forget, especially when discussing restoration of the Chesapeake Bay.
    The goal from all involved is the same, the continued health and 
vitality of the Bay, but the road to that health and vitality is being 
strongly debated. It is a clear choice, over-regulation and intrusion 
into the lives and livelihoods of those who chose to make the Bay's 
watershed their home, or incentive-based programs that help restore and 
protect our natural resources.
    EPA and other regulators fail to realize that fear and intimidation 
is no way to govern.
    No two producers face the same natural resource concerns. Voluntary 
conservation initiatives are the only way to respond to natural 
resource concerns because they can be tailored to best address each 
concern. We have seen time and again that top-down, one-size-fits-all 
is the least effective solution to a country as diverse as this. 
Whether the farms are 2 miles or 2,000 miles apart from each other--
protecting our drinkable water supply, keeping nutrients in the soil 
for the next crop year, or maintaining a supply of forage for 
livestock, there is no shortage of reasons why we must continue to 
innovate when it comes to preserving our natural resources.
    In addition to the great work being done at the state and county 
levels, I am proud that so many of the farmers and foresters in 
Pennsylvania have taken voluntary steps in order to do their part to 
assist in the recovery of the Chesapeake Bay. The environmental gains 
they have achieved are a testament to our producers.
    I'd also like to highlight the trust built between those who 
deliver conservation programs and farmers who depend on their technical 
assistance. These invaluable relationships are the core of the 
voluntary conservation model, and I would strongly caution any agency 
or organization who wishes to change this model for success.
    I am proud of the fact that farmers are taking real, on-the-ground, 
daily steps to improve water quality in the Chesapeake Bay region and 
across the country. With that, I thank our witnesses for being here 
today, and I recognize Ranking Member Lujan Grisham for any comments 
she would like to make.
                           Submitted Articles
Data Show Drop in Nutrient and Sediment Pollution, the Leading Causes 
        of the Bay's Poor Health
    [http://www.chesapeakebay.net/presscenter/release/
chesapeake_bay_water_qual-
ity_improving]
Chesapeake Bay Program
Chesapeake Bay Water Quality Improving
Press Center
Annapolis, MD (September 21, 2016)

    The amount of nutrient and sediment pollution entering the 
Chesapeake Bay fell significantly between 2014 and 2015, helping 
improve water quality in the nation's largest estuary. Experts 
attribute this drop in pollution loads to dry weather and below-normal 
river flow, but note local efforts to reduce pollution also played a 
role. Indeed, related research (http://www.chesapeakebay.net/
presscenter/release/
science_shows_restoration_efforts_can_improve_local_water_quality_in_the
_ch) shows ``best management practices''--including upgrading 
wastewater treatment plants, lowering vehicle and power plant 
emissions, and reducing runoff from farmland--have lowered nutrients 
and sediment in local waterways.
    The Chesapeake Bay Program (CBP) tracks pollution loads and trends 
(http://www.chesapeakeprogress.com/clean-water/water-quality/water-
quality) as it marks progress toward improving the health of the Bay. 
According to data from the CBP and the U.S. Geological Survey (USGS), 
nitrogen, phosphorus and sediment loads to the Bay were below the long-
term average in 2015. Between 2014 and 2015, nitrogen loads fell 25 
percent, from 290 million pounds to 217 million pounds. Phosphorus 
loads fell 44 percent, from 17.7 million pounds to 9.9 million pounds. 
Sediment loads fell 59 percent, from 7.2 billion pounds to 2.9 billion 
pounds. Below-average loads are considered positive because reductions 
in nitrogen, phosphorus and sediment pollution can improve water 
quality.
    The most recent assessment of water quality--which examines 
dissolved oxygen, water clarity and chlorophyll a (a measure of algae 
growth) in the Bay and its tidal waters--makes these improvements 
clear: an estimated (http://www.chesapeakeprogress.com/clean-water/
water-quality/water-quality) 37 percent of the tidal Chesapeake met 
water quality standards between 2013 and 2015. While this is far below 
the 100 percent attainment needed for clean water and a stable aquatic 
habitat, it marks an almost ten percent improvement from the previous 
assessment period.
    A large portion of pollution loads enters the Bay from the rivers 
within its watershed. Accordingly, the USGS tracks annual pollution 
loads and trends in these loads at monitoring stations along nine of 
the biggest rivers that feed the Bay. In some cases, long-term 
pollution trends at these stations--which span from 1985 to 2015--
reflect efforts to improve water quality. Long-term trends in nitrogen, 
for example, are improving at six of the nine monitoring stations, 
including those on the Susquehanna, Potomac, James and Rappahannock 
(the four largest rivers in the watershed). Long-term trends in 
phosphorus and sediment, however, are more variable: phosphorus is 
improving at three monitoring stations and degrading at five, while 
sediment is improving at three stations and degrading at four. Short-
term pollution trends--which span the last decade--show less 
improvement.
    In June, the U.S. Environmental Protection Agency released its 2 
year milestone evaluations of Federal agencies' and watershed 
jurisdictions' work toward the Chesapeake Bay Total Maximum Daily Load 
(https://www.epa.gov/chesapeake-bay-tmdl) (Bay TMDL). This ``pollution 
diet'' calls for all needed pollution control measures to be in place 
by 2025, with measures that would achieve 60 percent of pollution load 
reductions in place by 2017. Computer simulations show (http://
www.chesapeakeprogress.com/clean-water/water-quality/watershed-
implementation-plans) these measures are in place to achieve 31 percent 
of the nitrogen reductions, 81 percent of the phosphorus reductions and 
48 percent of the sediment reductions necessary to reach our clean 
water goals. Evaluations from EPA indicate it is unlikely jurisdictions 
will meet the 2017 target for reducing nitrogen.
    While continued improvements in water quality will take time--due 
in large part to the lag (http://www.chesapeakebay.net/blog/post/
lag_times_call_for_patience_
in_awaiting_restoration_results) between the implementation of a 
conservation practice and the visible effect of that practice on a 
particular waterway--the ecosystem is beginning to respond to 
protection and restoration efforts. Last year, researchers observed 
(http://www.chesapeakeprogress.com/abundant-life/vital-habitats/sav) 
more than 91,000 acres of underwater grasses in the Bay, which 
surpassed the Chesapeake Bay Program's 2017 restoration target 2 years 
ahead of schedule and marked the highest amount ever recorded by the 
Virginia Institute of Marine Science aerial survey.

    Facts

    The U.S. Geological Survey (USGS) monitors nitrogen, phosphorus and 
sediment loads entering the Chesapeake Bay from the nine largest rivers 
in the watershed. Together, pollution loads computed at all nine River 
Input Monitoring (RIM) stations reflect pollution loads delivered to 
the Bay from 78 percent of its watershed. Additional monitoring and 
modeling information is used to estimate the total nitrogen, phosphorus 
and sediment loads delivered to the Bay in a given water year.
    The amount of nitrogen, phosphorus and sediment entering the Bay 
can change dramatically from year to year and is influenced by changes 
in land use, land management and river flow. This complicates our 
efforts to determine trends in pollution loads over time. The USGS 
analyzes trends in flow-normalized pollution loads--which account for 
changes in weather and river flow--to better understand the changes in 
pollution that can result from changes in land use and management 
practices.
    Last year's decline in pollution loads can, in large part, be 
attributed to favorable weather. While high precipitation can increase 
river flow (http://www.chesapeakebay.net/indicators/indicator/
river_flow_into_chesapeake_bay) and push pollution into the Bay, river 
flow was below normal in 2015. However, 2015 was not a drought year. A 
related analysis (http://ecoreportcard.org/report-cards/chesapeake-bay/
publications/2015-chesapeake-bay-report-card/) from the University of 
Maryland Center for Environmental Science highlights the significance 
of this fact: previously observed improvements in water quality have 
been linked to lower rates of river flow than those seen in 2015. The 
long-term decline in pollution loads can also be attributed to on-the-
ground pollution-reducing practices, which jurisdictions put in place 
to meet first the 1983 Chesapeake Bay Agreement (http://
www.chesapeakebay.net/content/publications/cbp_12512.pdf), then similar 
agreements signed in 1987 (http://www.chesapeakebay.net/content/
publications/cbp_12510.pdf) and 2000 (http://www.chesapeakebay.net/
content/publications/cbp_12081.pdf), and later the requirements of the 
Chesapeake Bay Total Maximum Daily Load (https://www.epa.gov/
chesapeake-bay-tmdl) (Bay TMDL).
    The Chesapeake Bay Program uses the following data to determine the 
total nitrogen, phosphorus and sediment loads entering the Bay:

  <bullet> Nitrogen, phosphorus and sediment loads computed at nine RIM 
        stations;

  <bullet> Nitrogen and phosphorus levels in water samples collected at 
        wastewater treatment plants downstream of RIM stations;

  <bullet> Computer-simulated estimates of nitrogen and phosphorus 
        loads from nonpoint pollution sources downstream of RIM 
        stations; and

  <bullet> Computer-simulated estimates of the atmospheric deposition 
        of nitrogen to tidal waters.

    Water quality in the Bay and its tidal tributaries is evaluated 
using three parameters: dissolved oxygen, water clarity or underwater 
grass abundance, and chlorophyll a (a measure of algae growth). These 
parameters are monitored by the Maryland Department of Natural 
Resources and the Virginia Department of Environmental Quality. The 
resulting data is used to develop an indicator of the estimated 
attainment of a set of water quality standards that can be monitored at 
this time. During the 2013 to 2015 assessment period, an estimated 37 
percent of the Bay and its tidal waters met water quality standards. 
This marks an increase of almost ten percent from the previous 
assessment period, during which an estimated 34 percent of the Bay and 
its tidal waters met water quality standards. While this indicator does 
not represent a complete accounting of all of the water quality 
standards for the Bay and its tidal tributaries, it does reflect trends 
in water quality over time. If the Bay and its tidal tributaries are to 
function as a healthy ecosystem, all water quality parameters for all 
aquatic habitats must be met.

    Issues

    Excess nutrients (http://www.chesapeakebay.net/issues/issue/
nutrients) and sediment (http://www.chesapeakebay.net/issues/issue/
sediment) are among the leading causes of the Bay's poor health. 
Nitrogen and phosphorus can fuel the growth of algae blooms that lead 
to long-duration, low-oxygen ``dead zones'' in deep water and short-
duration ``mortality moments'' in shallow water. Sediment can block 
sunlight from reaching underwater grasses and suffocate shellfish. By 
tracking pollution loads into rivers and streams, the Chesapeake Bay 
Program can ensure our partners are on track to meet our clean water 
goals. By measuring the achievement of water quality standards, we can 
observe changes in Bay health over time. By reporting on these 
environmental indicators together, we gain a better picture of how 
pollution from the watershed can affect the health of the Chesapeake 
Bay.

    Quotes

          ``It is critical that we track our pollution control efforts 
        and assess the ecosystem response that result from those 
        efforts. The ecosystem of the Chesapeake Bay watershed is large 
        and complex and can be affected by a variety of different 
        factors. We are witnessing improvement in a number of our 
        indicators--bay grasses, water clarity and water quality 
        standards attainment, as well as a number of our fisheries such 
        as blue crab population. But we must stay focused and ramp up 
        our pollution reduction efforts if we are to be successful over 
        the long-term.''
                     Nick DiPasquale, Director, Chesapeake Bay Program.

          ``While our job is not done, our determined efforts to date 
        give us great hope for further improvements in water quality in 
        the Bay and its tributaries and the living resources that 
        depend on healthy aquatic habitats.''
Molly Joseph Ward, Virginia Secretary of Natural Resources, and Chair, 
                    Chesapeake Bay Program Principals' Staff Committee.
          ``While the lowered amount of pollution entering the 
        Chesapeake Bay in 2015 is encouraging, the trends of nutrients 
        and sediment over the last decade in the major rivers flowing 
        into the Bay show mixed results. There will need to be 
        improving trends in all of these rivers to support improvement 
        in the Bay's health.''
    Scott Phillips, Chesapeake Bay Coordinator, U.S. Geological Survey.

    Related

          Water quality improves, pollution falls in the Chesapeake Bay 
        (http://www.chesapeakebay.net/blog/post/
        water_quality_improves_pollution_falls_
        in_the_chesapeake_bay) (September 21, 2016).
                                 ______
                                 
Farming, September 2016
What is the Cause of the Bay's Problems?
Manure Gets Too Much Blame, Farmer-Biologists Say
By Curt Harler 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The reproductive cycle of fish in the Chesapeake Bay is unusual. 
The U.S. Geological Survey (USGS) has found male fish in the 
Susquehanna carrying eggs. And intersex fish have been found. That is 
simply wrong.
    The USGS is monitoring the Juniata River, Swatara Creek (which is a 
river-size stream) and other watersheds in the mid-Atlantic area. All 
show male fish with female sex features. Interestingly, the females do 
not show male attributes.
    Farmers have shouldered most of the blame for pollution problems in 
the Chesapeake Bay. Conventional wisdom said it was manure runoff and 
chemical fertilizer in the Bay watershed that was destroying fisheries. 
Nutrients were pouring down the Susquehanna from New York, 
Pennsylvania, Delaware and Maryland into the watershed.
    Many felt that farmers had to be stopped. This mantra, based on 
some solid scientific research, has been repeated for over \1/4\ 
century. To agriculture's credit, much has been done about the 
situation.
    Now comes Cleon S. Cassel, owner of Cassel Vineyards of Hershey in 
Hummelstown, Pennsylvania, to say that manure is not the deep cause of 
the problem. Yes, he concedes, manure and fertilizer runoff caused 
problems in the past. But what is hurting the fishing industry--and 
will hurt it even more in the future--is the runoff of drug store 
medicines like estrogen from birth control pills, diabetes medications 
and other legitimate pharmaceuticals. Road salts are not helping. 
Neither are waste products from hospitals and pharmaceutical plants.
    Cleon and his sons, Chris and Craig, all hold master's degrees and 
all taught biology. Chris got his master's degree studying stream 
runoff at mine sites, so he knows about sampling procedure and research 
in watersheds.
    ``This has become a terrible PR problem for farmers,'' Cleon said. 
He would like to see groups like Farm Bureau expend more effort 
defending farmers and less bragging about crop yields increasing a few 
percentage points.
    This spring, Chris took his biology classes from the Milton Hershey 
School out to sample every tributary to the Swatara near Hershey. His 
findings point to drugs and female hormones in the water. That, he 
said, is why the males show female attributes but not vice versa.
    Others concur. The U.S. Fish and Wildlife Service (FWS) and the 
(USGS) published work in 2009 based on the Potomac and other area 
watersheds that showed that at least 82 percent of male smallmouth bass 
and 23 percent of the largemouth bass had immature female germ cells 
(oocytes) in their reproductive organs.
    ``Our findings suggest that intersex is both more widespread than 
previously known, and, at least in the sampled streams, is not related 
to a single chemical or source,'' said Vicki Blazer, a USGS scientist 
at the Leesville experimental stream lab in Kearneysville, West 
Virginia.
    This condition, a type of intersex, is a disturbance in the fish's 
hormonal system and is an indicator of exposure to estrogens or 
chemicals that mimic the activity of natural hormones. Several other 
abnormalities were also noted by the researchers from the National Fish 
Health Research Laboratory, some affecting female bass.
    Blazer has looked at why so many male smallmouth bass in area 
watersheds have immature female egg cells in their testes. Recent 
research by the USGS points to myriad sources including wastewater 
treatment plant effluent, agricultural and stormwater runoff. Any or 
all may contribute to reproductive endocrine disruption, as well as the 
immunosuppression they found.
    Working with the Maryland Department of Natural Resources Fisheries 
Service, two scientific papers were published by the researchers. 
(Later, Blazer got the American Fisheries Society's 2010 Publications 
Award for her article investigating fish mortality.) Based on the 
results of these studies, no single chemical or source could be 
identified as causing the intersex abnormalities. Scientists point out 
that multiple chemicals not solely associated with agriculture or 
wastewater treatment plant effluents may be responsible.
    Maryland Department of Natural Resource (DNR) surveys have 
documented strong reproduction and abundance of smallmouth bass in 
recent years. ``The Potomac River main stem, Monocacy River and 
Conococheague Creek remain premier smallmouth bass fishing destinations 
for anglers,'' said John Mullican from Maryland DNR.
    White sucker fish also showed a tendency to react to hormones. This 
surely is a bad portent for the Chesapeake Bay.

    Biology Background

    In addition to being a farmer, Cleon taught biology at Lower 
Dauphin High School. His son teaches biology at Hershey School. They 
know biology. Their thoughts are backed up by scientists ranging from 
the Pennsylvania Department of Environmental Protection to the National 
Geographic Society. Their land has been cultivated by the Cassel family 
since 1903. The Swatara is about a mile from the home farm. Craig and 
Chris, along with and their wives, Becky and Jody, are the fifth 
generation to work the farm and are part of the three generations of 
family that currently work the land near Hershey. Cleon is looking to 
the future--and the sixth generation is at the rabbit-showing stage in 
their career.
    To date, just two percent of the population--farmers, and sometimes 
golf courses, cemeteries or other green areas--have been asked to bear 
the onus of the Bay's problems, the Cassels said.
    Chris said Blazer's collection sites are in an area of minimal 
agricultural runoff. However, he noted there are numerous wastewater 
plants, institutions like the Milton Hershey Hospital and 
pharmaceutical plants in the watershed.
    Hormones are killing the Chesapeake Bay for fishermen, the father 
and sons said. ``We have regulations for 20 percent cuts in nutrients. 
We ought to demand 20 percent cuts on estrogen and road salts,'' Cleon 
said.
    The Pennsylvania Department of Agriculture is aware of the issue 
but has taken no action to date. The Cassels want the government and 
other researchers to expend more effort researching hormones and road 
salts as killers of fish. It is not that they deny manure is part of 
the problem. They freely admit that it is. However, after 30 years of 
work with farmers, environmental conditions in the Bay are barely 
holding their own despite huge improvements in reducing ag runoff.

    A Look at Manure

    Chris noted that the fish gathered for study outside Hershey were 
netted near the Hershey Medical Center. No mention of the medical 
center is made in the research, although he said every male bass taken 
in that area showed female organs.
    ``We've been beating up farmers about manure ruining every 
watershed,'' noted Sheila Miller who, with her husband, Mike, runs 
Deitchland Farm near Womelsdorf, Pennsylvania. ``Even the kids in 
school think farmers are to blame.''
    Cleon agreed. ``The Amish are the easiest people to blame. They 
never go to court. They never fight back. Farmers are second easiest.''
    While Miller is adamant that farmers should not be putting manure 
into streams, she noted the amount of work that has been done--starting 
with the decades-old practice of contour farming and continuing to 
today's BMPs (best management practices).
    The Conservation Effects Assessment Project (CEAP) agrees that 
farmers have done well. ``Farmers have made good progress in reducing 
sediment, nutrient and pesticide losses from farm fields through 
conservation practice adoption throughout the Chesapeake Bay region,'' 
CEAP stated.
    Most cropland acres have structural or management practices--or 
both--in place to control erosion. Nearly \1/2\ of the cropland acres 
are protected by one or more structural practices, such as buffers or 
terraces. Reduced tillage is used in some form on 88 percent of the 
cropland. Adoption of conservation practices has reduced edge-of-field 
sediment loss by 55 percent, losses of nitrogen with surface runoff by 
42 percent losses of nitrogen in subsurface flows by 31 percent, and 
losses of phosphorus (sediment attached and soluble) by 41 percent.
    Producers have reduced N by over 45 percent of 2025 targets, 
phosphates by 32 percent and sediments by 30 percent. Even watchdog 
agencies concede that ag has done a lot. Farmers have accomplished 50 
percent of what they were asked to do to get the Bay to a level of 
nutrients and sediments where it can start to regenerate itself.
Chesapeake Bay Segmentsheds with Major Basins

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Even critics agree that it is likely more has been done by farmers 
than has been counted. This is primarily because projects that are not 
cost-shared fly under the government's radar.
    Since it is easy to document cost-share projects--state and Federal 
agencies do a good job of that--those projects are well known. However, 
improvements producers do on their own are harder to track.
    The problem is that the success story is not uniform. CEAP said, 
``Opportunities exist to further reduce sediment and nutrient losses.'' 
But, as Chris said, that is only part of the problem. And the big, low-
hanging fruit is in drugs, not manure.

    Historic Record

    The USGS got involved long ago. In the summer and fall months of 
1996 and 1997, an unusually high prevalence of skin lesions in fishes 
from tributaries of the Chesapeake Bay surprised the fishing community 
and scientists. These skin lesions ranged from small petechial 
hemorrhages to abrasions to deep ulcers penetrating underlying muscle 
and visceral organs. A variety of fish species were involved as 
indicated by results of surveys conducted by several state and Federal 
agencies during this time period.
    In addition, two fish kills involving primarily juvenile Atlantic 
menhaden occurred in August 1997. The fish kills as well as the variety 
of fish lesions were attributed to the presence of the toxic 
dinoflagellate, Pfiesteria piscicida. Because menhaden were the most 
frequent target of acute fish kills and episodes of fish lesions in the 
Chesapeake Bay, the penetrating ulcers so common in this species are 
now viewed by many as ``Pfiesteria-related'' and thought to be caused 
by exposure to Pfiesteria toxin.
    Even earlier, however, there was reason to doubt that manure or 
farm fertilizer were the major cause of fish kills. Every farm boy or 
girl over a certain age remembers being sent down to the pond on the 
homeplace with a bucket of fertilizer and ordered to toss in some 
scoops to encourage growth.
    The Cassel operation has a couple of farm ponds including one just 
below the horse barn--a building that used to house 100 head of 
cattle--that are full of thriving fish. They have received manure, but 
not estrogen or road salt, since 1948. Other farmers have healthy ponds 
that have received manure or fertilizer runoff for decades, too.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Cleon Cassel and his sons Chris and Craig all hold master's 
        degrees and all taught biology. Chris, here with a bass, got 
        his master's degree studying stream runoff. Photo by Jody 
        Cassel.

    ``Our pond has some of the best fishing in Dauphin County and it is 
way over-nutrient loaded,'' Cleon said.
    Cleon noted an old booklet from the folks at Zett's Fish Hatchery 
in Drifting, Pennsylvania, that encourages landowners to sink a bale of 
straw in a pond and add a sack of manure to the mix to encourage 
smaller aquatic life to feed. ``We'd go to jail if we did that today,'' 
he said.
    Most farmers are on board with reducing manure and fertilizer 
runoff. However, manure may be only part of the issue. So-called 
``nanoparticles''--those man-made bits of material included in hundreds 
of products ranging from drugs to sunscreen to sporting goods--are what 
the Cassels and others suspect are doing the bulk of the damage today.
    Rebecca Klaper, Ph.D., professor at the School of Freshwater 
Sciences at the University of Wisconsin-Milwaukee, studies 
nanoparticles. She wants to know what happens when something so small 
gets into the environment. Scientists still don't know how these tiny 
particles interact with the environment and living things, she said. 
Using environmental genomics, she has studied waterways from Wisconsin 
across the Great Lakes into Pennsylvania.
    To predict the potential impact of nanomaterials on the 
environment, her group examined properties of nanomaterials that may 
make them toxic or cause them to impact populations. She uses the 
aquatic model species Daphnia magna, D. pulex and Oncorhynchus mykiss 
(rainbow trout) in an effort to make predictions about the impact of 
current and future nanomaterials and their toxicity.
    ``Our initial studies have found that nanoparticle toxicity is 
influenced by the core structure of the nanomaterial as well as how a 
nanomaterial is introduced into suspension,'' Klaper said. For example, 
titanium dioxide nanomaterials are an order of magnitude less toxic 
than their fullerene (nC60) counterparts. In addition, smaller 
particles are more toxic than larger aggregates. ``We are continuing 
this research with other nanomaterials,'' she said. A complete 
investigation will not be a rapid process.
    Core particle structure and surface chemistry both act to impact 
toxicity, immune response and behavior. ``Taking a systematic approach 
to evaluating nanomaterials will provide a basis with which to make 
predictions about the characteristics of nanomaterials that may affect 
their interactions with aquatic species,'' Klaper said.
    Ultimately, she hopes to be able to provide guidance on what makes 
nanomaterials harmful to the environment and ideas on to how to create 
environmentally sustainable nanomaterials.
    Whatever the cause of the Bay's difficulties today, most observers 
would agree that anything that impacts the health of the Bay should 
come under review.
    Focusing on farmers and manure runoff, to the exclusion of other 
potentially more-damaging causes, is bad for everyone.
    ``The finger-pointing at farmers is not going to go away,'' Chris 
said, noting big pharma has too much money in the game to allow that.
    Research efforts flow to areas where dollars are available. Nobody 
in academic research wants to do anything that would cause 
pharmaceutical companies to withdraw research dollars, he said. 
However, he sees some hope since wastewater treatment operations know 
they have ``a secret problem'' and are working on ways to treat 
effluent.
    ``Nobody wants to say, `We have met the enemy and they are us,' '' 
Cleon said. ``But it is interesting that all the researchers' findings 
(of sex-distorted fish) are close to populated areas, close to research 
facilities, close to pharmaceutical plants.''

          Curt Harler. who has a B.S. in agriculture from Penn State 
        University and an M.S. in ag from Ohio State University, is a 
        full-time freelance writer specializing in green topics.

    The Chairman. Now, it's my privilege and honor to recognize 
Ms. Kuster, serving as acting Ranking Member for this hearing, 
at this point for her opening statement.

 OPENING STATEMENT OF HON. ANN M. KUSTER, A REPRESENTATIVE IN 
                  CONGRESS FROM NEW HAMPSHIRE

    Ms. Kuster. Thank you very much, Chairman Thompson. And 
thank you for holding today's hearing.
    We appreciate the opportunity to allow us to further 
explore how our conservation efforts are working on-the-ground. 
As we move closer to the next farm bill in the upcoming 
session, these are the conversations that our Committee needs 
to continue to have.
    Farm bill conservation programs incentivize farmers and 
ranchers to take real, meaningful, and voluntary conservation 
efforts on their land. Farmers and ranchers can choose from 
several different farm bill conservation programs, such as 
EQIP, the Environmental Quality Incentive Program, the 
Conservation Stewardship Program, and the Regional Conservation 
Partnership Program, to meet the conservation needs of their 
operations and the surrounding landscape.
    It is clear to me that the success of voluntary 
conservation programs depends upon the partnerships that 
producers develop, not only with the NRCS but also with the 
conservation districts that help farmers and ranchers implement 
these practices on-the-ground.
    I know that a lot of conservation work has gone toward 
cleaning up the Chesapeake Bay watershed. As an aside, I worked 
here on the Hill--I like to say 30 years ago; it is more like 
40 years ago--and learned to wind surf in the Chesapeake Bay. 
And let me just say: thank you for your efforts to clean that 
up.
    Because of these efforts and the partnership and 
participation of farmers, we have seen the health of the Bay 
improve dramatically. There remains a lot more to do in the Bay 
watershed, like many other areas across the country.
    While many of us on this Committee are not from the 
Chesapeake Bay area, we are watching the Bay closely for 
strategies, best management practices, and lessons that we can 
apply to other important conservation areas, like in my region, 
the White Mountain National Forest and the Silvio Conte 
Wildlife Refuge.
    Thank you to the witnesses for being here today. We 
appreciate your time.
    And thank you, again, Mr. Chairman, for holding this 
hearing. I hope we will have more hearings to come to continue 
to examine our farm bill conservation programs, and we can all 
work together to make sure that these programs are easy to use 
for farmers and ranchers.
    I yield back.
    The Chairman. I thank the gentlelady, who obviously started 
working on the Hill when she was 5 years old.
    Ms. Kuster. Oh, thank you.
    The Chairman. The chair would request that other Members 
submit their opening statements for the record, so that the 
witnesses may begin their testimony to ensure that there is 
ample time for questions. The chair would like to remind 
Members they will be recognized for questioning in order of 
seniority for Members present at the start of the hearing. 
After that, Members will be recognized in order of their 
arrival, and I appreciate the Members' understanding.
    I would like to welcome again our witnesses to the table, 
two agriculture leaders. Mr. Jason Weller, Chief, Natural 
Resources Conservation Service, United States Department of 
Agriculture; and the Honorable Russell Redding, Secretary, the 
Pennsylvania Department of Agriculture, serving the 
Commonwealth of Pennsylvania, based out of Harrisburg, 
Pennsylvania.
    Witnesses are reminded to limit their oral presentations to 
5 minutes, and all written statements will be included in the 
record.
    Chief Weller, please begin when you are ready.

           STATEMENT OF JASON WELLER, CHIEF, NATURAL
RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Weller. Good morning, Mr. Chairman, Ms. Kuster, and 
Members of the Committee. Thank you very much for the 
invitation.
    And, Mr. Chairman, I really credit you in holding this 
hearing and having an opportunity to talk about how the 
voluntary approach is delivering real results.
    In my experience in the last several years, particularly in 
the last several months, it seems there is a growing theme, and 
it is one I am concerned about. And that is the voluntary 
approach to agriculture conservation is not working, and we are 
not getting the results that were perhaps expected or promised. 
And people are considering other options, whatever those 
options may be.
    To have a forum, a venue to actually share what farmers and 
forest landowners are doing for the Chesapeake Bay but what, 
importantly, this Committee provides for through its 
investments through USDA generally and NRCS specifically for an 
array of conservation programs and the very significant 
assistance this Committee makes available, I have to say it is 
delivering huge results, not just in the Chesapeake Bay but 
nationally.
    In previous testimony, I have been able to talk about some 
of the other outcomes, results that are happening on the 
landscape because of the voluntary approach, because of the 
collaborative approach farmers and ranchers are taking as part 
of their agricultural production. But, today, we are also, 
obviously, focused on the Bay.
    And there have been some allegations that USDA hasn't done 
its part, that we made promises. I am here to say we made 
promises absolutely, but those promises were absolutely kept 
and in part because of the very significant programs and 
flexibilities and tools this Committee provides us, and in 
partnership with agriculture in the Chesapeake Bay.
    Since 2009 through this fiscal year, we at NRCS and our 
conservation partners, state government and districts and NGO 
organizations across the Bay watershed, and across six states, 
have invested $890 million in financial and technical 
assistance to help producers put in place valuable conservation 
practices on their operations. That in turn has leveraged we 
estimate $400 million in conservation out of the pockets, the 
budgets of those family farming operations. Just through the 
title II programs alone, that is not counting the very 
significant investments from partners and state government and 
very significant investments from the NGO community. We are 
talking a very substantial investment in private lands, 
voluntary incentive-based conservation.
    In general, I sleep well at night knowing that the 
voluntary approach works and is delivering results. But what is 
really compelling is that this voluntary approach is a win-win. 
It is a win in this case because we are starting to see a 
recovery of the Bay, but it is also a win because we have been 
able to maintain productive working agricultural lands here in 
the Chesapeake Bay region.
    Regarding the size and scope, sir, that you outlined at the 
beginning, it is a very large watershed. In total, it is 44 
million acres in size, of which about 7 million acres are 
cropland, another 3.6 million acres are pasture, and then 
forests are an additional 21 million acres. It is a very 
significant footprint that rural lands have. And that is a good 
thing, because we depend upon the water flowing off those rural 
lands to maintain the quality of waters that flow ultimately 
into the Bay.
    In my view and in my estimation, if you care about the 
quality of the Bay water, you have to care about the integrity 
and the economic success of those working landscapes. It is not 
just something that NRCS believes in, it was actually in the 
Administration's Chesapeake Bay strategy that was released in 
2010, that was put out as an interagency report, that laid out 
our strategy and our commitments, going forward, to implement 
President Obama's Executive Order to help address Chesapeake 
Bay challenges and also opportunities. In that report, it 
specifically calls out that healthy, productive agriculture is 
essential to maintaining the protection and vitality of the 
Chesapeake Bay waters.
    We put in place, we invested $890 million. By many people, 
unfortunately, that is the only metric, how much money you 
spend. In my view, that is not a very good metric. I would 
rather actually get to what we are really doing with the money. 
With the money invested, we were able to put in place 
conservation systems on 3.6 million acres of working lands: 
croplands, pastures, and working timberland forests. That is a 
land area equivalent size almost three times the State of 
Delaware.
    Within that very significant footprint, we then worked with 
our partners to try and identify, where are those most 
vulnerable soils? Where are those small watersheds where there 
is the greatest opportunity to make a difference? We put in 
place these overall good water-quality management practices on 
1.6 million acres and highly targeted practices in these 
priority areas across the Bay states.
    Just measuring by one metric alone, the protection for the 
streams and tributaries, just looking at those buffers and 
fences, basic practices to protect the integrity of those 
riparian areas, if you laid them end to end, it would be 3,500 
miles of water quality protection practices along streams and 
tributaries were installed just since 2009. If you laid that 
out, that would stretch from Annapolis, Maryland, all the way 
to San Francisco, and from San Francisco all the way north to 
Seattle. The voluntary approach absolutely is installing real 
infrastructure that works for working agriculture but also, in 
this case, is helping to protect the waters of the Chesapeake 
Bay.
    What is the result of all this? We went out and did a 
survey with producers on the Bay back in 2012. Already, that 
survey result is getting a little bit long in the tooth. But 
back in 2012, what we found is that producers on the Bay had in 
place soil conservation practices on 97 percent of all cropland 
acres on the Bay. Ninety-seven percent of the 7 million 
cropland acres on the Bay had soil conservation practices in 
place. At least 52 percent of those cultivated crop acres had 
cover crops as part of the rotation. Over 50 percent were no-
till.
    When we went out and we have done these surveys nationally, 
the Chesapeake Bay stands out as one of the leading areas in 
the entire country in terms of the level of stewardship and 
good quality management, soil conservation, and water-quality 
management. In many cases, they stand, producers here on the 
basin, stand head and shoulders above other areas in the 
country. There is no doubt in my mind that is a result of the 
voluntary approach producers are doing their part.
    What do these good conservation practices result in? Back 
in 2012, again, we estimate that we reduced edge-of-field 
losses moving off cultivated farm fields by 62 percent in terms 
of sediment loss, 45 percent from the phosphorus loss, and 38 
percent in terms of nitrogen loss. Just sediment loss alone, 62 
percent reduction in edge-of-field loss, that is equivalent to 
15 million tons of sediment that is no longer flowing into 
tributaries and ultimately deposited into the Chesapeake Bay 
watershed.
    A headwind, though, that blowing against this that people 
don't often talk about is actually the urbanization of the 
watershed. Over the last 20 years, so from 2002 to 2012, in 20 
years, 1.6 million acres of rural lands were developed, were 
converted. I don't want to pick on Delaware, but that is a land 
area 30 percent bigger than the entire State of Delaware was 
developed.
    Why is that significant? Because when you have asphalt, 
roads, roofs, parking lots, an acre the asphalt has 16 times 
the volume of runoff than an acre of meadow. You are 
exacerbating the runoff, the energy that is flowing into 
tributaries, eroding stream banks, picking up sediment that is 
in the streambeds, ultimately flowing warmer water, faster 
water, more energetic water, carrying nutrients, sediments 
other contaminants off of those developed areas in the 
Chesapeake Bay watershed. That is a strong headwind. 
Notwithstanding the headwind, we have made great progress.
    What are the actual results? We have estimated what some of 
these results are doing, and we went out and we started to a 
look at, what are other organizations reporting out in terms of 
actual outcomes? To be clear, I am not claiming credit that 
agriculture is responsible for all of these outcomes. But when 
you start to lay out all the positive trends and you connect 
the dots, big picture view, there is something happening, and 
it is very positive. In my view, agriculture is a huge 
contributor to this.
    The Chesapeake Bay Program has estimated that, between 2009 
and 2015, that there have been declines in loadings, in 
tributaries flowing into the Bay. In terms of sediment, a 640 
million pound reduction in sediment, a 38 million pound 
reduction in phosphorus, a 24 million pound reduction in 
nitrogen. It turns out the agricultural sector, according to 
the Chesapeake Bay Program, is the leading sector reducing 
these loadings. In terms of the sediment, the agricultural 
sector is responsible for 78 percent of that reduction. For the 
phosphorus, the agriculture sector is responsible for 53 
percent of that reduction. And for nitrogen, the agriculture 
sector is responsible for 23 percent of that reduction.
    According to the USDA, the long-term trends in total 
nitrogen indicate improving conditions at a majority of the 
monitoring stations across rivers and tributaries in the Bay. 
Twice as many monitoring stations show improving trends for 
nitrogen as those monitoring stations showing degrading trends. 
And for phosphorus, over three times as many are monitoring 
stations that show positive improving trends as those show 
degrading. According to USGS, for the last 10 years, nitrogen 
levels improved at 54 percent of the monitoring stations and, 
for phosphorus, at 68 percent of the monitoring stations.
    And USGS also estimated, in providing a forecast about 
potential summer dissolved oxygen levels, which is a measure of 
quality of Bay water, USGS estimated that the Susquehanna River 
delivered 66.2 million pounds of nitrogen from January to May 
2016, which is 17 percent below average conditions.
    According to the Maryland Department of Natural Resources 
in July of 2016, they issued a report that dissolved oxygen 
levels in Maryland's portion of the Bay were the second best 
since 1985. And University of Maryland's Center for 
Environmental Studies, they are the ones who produce the annual 
report. They issue the index report card. They give a score for 
the health of the Bay. In 2015, it earned one of the three 
highest scores since 1986. They got a letter grade of ``C,'' 
which I will say is not great, but it is one of the three 
highest since 1986, and the other two highest were in 2014 and 
2013, showing a positive trend line.
    You also look at the ecosystem itself. You have crabs, 19 
percent increase in breeding adult females. Total blue crab 
population, it is the fourth highest population in 2 decades. 
Seagrass extent, we have had an over 50 percent increase in the 
overall expanse of seagrasses in the Bay, which is another 
indicator of overall aquatic health. That is important because 
those are the nurseries, the fisheries for crabs and for other 
aquatic species in the Bay. Anchovy, bass, shad have all shown 
over the last several years, if not a decade, positive 
increases, a surging rebounding population across the Bay.
    Again, I am not claiming agriculture is solely responsible, 
but in my view, agriculture has absolutely not only made a 
promise in part because of what this Committee provides to our 
Department, has helped deliver on that promise through a 
voluntary collaborative approach, which is helping, in my view, 
ensure the long-term sustainability and productivity of 
agriculture in this region but also, in this case, the recovery 
and health of the Chesapeake Bay watershed. Thank you.
    [The prepared statement of Mr. Weller follows:]

     Prepared Statement of Jason Weller, Chief, Natural Resources 
 Conservation Service, U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman, Ranking Member, and distinguished Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to talk about agriculture, conservation, and the shared effort to 
restore the health of the Chesapeake Bay. The ongoing support of this 
Subcommittee for voluntary private lands conservation is an enormous 
part of the conservation work that is making a difference for the 
Chesapeake Bay ecosystem and the region's farms and private forests.
Agricultural Land--Key to a Healthy Bay
    The Chesapeake Bay is North America's largest, most biologically 
diverse estuary. Its watershed covers 64,000\2\ miles across six states 
and is home to more than 17 million people. Nearly \1/4\ of the 
watershed's area is in agriculture, whose 84,000 farms' sales approach 
nearly $10 billion annually. Since 2009, Federal agricultural 
conservation investments approaching $1 billion have been helping the 
agricultural community on its way toward meeting key conservation goals 
for cleaner water and a healthier ecosystem. Our own science has 
documented the benefits being delivered by farmers' active conservation 
systems, while independent modeled and monitoring results show positive 
trends for water quality, habitat and key aquatic species.
    With technical and financial help from USDA's Natural Resources 
Conservation Service (NRCS) and farm bill programs, farmers in the 
watershed are installing conservation systems that avoid, control and 
trap potential nutrient and sediment losses from farm fields. In 
addition to helping improve water quality, these conservation systems 
help boost soil health and air quality, enhance wildlife habitat and 
strengthen the economic bottom lines for farms.
    While agriculture and forest lands remain the predominant land uses 
in the Bay watershed, both farming and Chesapeake Bay water quality are 
under continuing pressure from development. Between 1992 and 2012, 
developed area in the watershed increased by nearly 40 percent (or 
about 1.6 million acres). Among the consequences of losing agricultural 
areas are declines in access to local, fresh foods; reduction in the 
capture of carbon in soils and plants; and increased runoff from roads, 
roofs, and parking lots. For example, a 1 acre parking lot produces 
about 16 times the volume of runoff that comes from a 1 acre meadow. 
While there is no single-sector or short-term solution for the complex 
water quality issues in the watershed, maintaining agriculture is 
essential to protecting and restoring the Chesapeake Bay.
NRCS Investment in the Bay Watershed
    In 2009, Executive Order 13508 directed agencies to focus resources 
and identify innovative solutions for improving water quality in the 
Bay. NRCS collaborated with Federal, state and local partners to target 
conservation investments and accelerate results. According to USDA's 
Conservation Effects Assessment Project (CEAP), focusing conservation 
efforts in priority watersheds and on vulnerable soils can accelerate 
per-acre reductions by 70 percent for sediment, 30 percent for 
nitrogen, and 40 percent for phosphorus, as compared to no targeting. 
Approximately 500 small priority watersheds were identified, and USDA 
established a goal of helping to install conservation systems on 4 
million farmland acres in these watersheds by 2025.
    Since 2009, NRCS has worked with thousands of farmers and forest 
landowners to implement ``Avoid-Control-Trap'' conservation systems on 
over 3.6 million acres in the watershed. Critically, about 50 percent 
of this work has been focused on those priority watersheds and soils, 
generating greater water quality returns for the Bay and achieving 
about 41 percent of the 2025 goal within just the initial 6 years.
    Through these partnerships with farmers and landowners, since 2009 
NRCS has invested over $890 million in Federal conservation funding in 
the Bay watershed. In turn, this Federal investment is leveraged by an 
estimated $400 million in financial and management resources of the 
watershed's farmers and forest landowners, as well as state and local 
governments and private conservation organizations who are helping to 
implement key actions in each of the Bay states' Watershed 
Implementation Plans.
    NRCS and partners are also building the next generation of 
conservation science and innovation through Conservation Innovation 
Grants. Between 2009 and 2016, NRCS has invested nearly $16 million in 
35 projects to test new approaches and technologies, and deepen the 
bench of partners and tools to drive continued progress in the 
Chesapeake Bay watershed. These partners match or exceed the Federal 
investment, adding over $16 million of their own resources to 
developing and disseminating conservation tools, technologies and 
approaches to accelerate progress.
    The Regional Conservation Partnership Program (RCPP) provides the 
newest platform for partners to collaborate and work cooperatively with 
producers on Bay-wide solutions. The Chesapeake Bay Watershed is one of 
eight critical conservation areas for RCPP funding, allowing partners 
in the region to access all RCPP funding pools. In the two sign-ups 
since the program started, 14 projects have been selected within the 
Bay Watershed, which will help to improve water quality and wildlife 
habitat in the Bay region, while also enhancing farms and forest 
resiliency and productivity. Currently, over $42 million in Federal 
resources are leveraging nearly $60 million in non-Federal investments 
over the next 4 years.
A Healthier Bay
    The signs of a healthier Bay are evident across the watershed, from 
cleaner water to grasses on the sea floor and more abundant fish and 
wildlife. A number of agencies and non-government organizations are 
studying the rebound of the Chesapeake Bay ecosystem made possible by a 
variety of sectors, including agriculture.
    Voluntary conservation is working to reduce the loss of sediment 
and nutrients from farm fields in the Chesapeake Bay region, according 
to USDA's Conservation Effects Assessment Project (CEAP):

  <bullet> Reducing Sediment Loss--farmers are combining cover crops 
        and field buffers to control erosion and reduce sediment 
        leaving their land. As a result, between 2006 and 2011, average 
        edge-of-field sediment loss decreased by an estimated 15.1 
        million tons per year.

  <bullet> Managing Nutrients--farmers are using practices such as 
        residue and tillage management, nutrient management and waste 
        storage facilities to minimize the risk of nutrients and 
        sediment reaching the Bay while maintaining productive farming 
        operations. NRCS estimates, from 2006 to 2011, that improved 
        nutrient management has reduced the total loss of nitrogen by 
        26 percent and phosphorus by 45 percent.

    Across the basin, cover crops and other conservation efforts have 
reduced runoff of nutrients and sediment. The Chesapeake Bay Program 
reports that between 2009 and 2015, nitrogen loads going to the Bay 
declined by eight percent, phosphorus loads by 20 percent, and sediment 
loads by seven percent. Agriculture was the leading contributor to 
phosphorus and sediment reductions during this period--providing over 
50 percent of the phosphorous and over 75 percent of the sediment 
reductions.
    Some U.S. Geological Survey (USGS) water quality monitoring 
stations are showing water quality improvements in the streams and 
rivers that flow into the Bay and in the watershed. The USGS has 
reported that over the last 10 years, nitrogen levels have improved at 
54 percent of the monitoring sites and phosphorus at 68 percent of the 
sites. According to data released by the Maryland Department of Natural 
Resources in July 2016, the dissolved oxygen levels in Maryland's 
portion of the Chesapeake Bay were at their second best since 1985.
    Cleaner water drives ecosystem recovery. Underwater grasses, which 
provide critical food and shelter to wildlife, are recovering. The Bay 
Barometer, reported that between 2013 and 2015, those grasses have 
grown from nearly 60,000 acres to more than 91,000 acres--the largest 
amount of grass ecosystems in the past 3 decades, exceeding the 2017 
restoration target 2 years early.
    The Maryland Department of Natural Resources reports that blue 
crab, an indicator of the Bay's health, has seen population spikes. 
Adult females are up 92 percent in 2016 compared with last year, 
building on population climbs over the past few years. The overall crab 
population is the fourth highest level in 2 decades, and builds on last 
year's 38 percent boost in abundance.
Conclusion
    There is more work ahead, but one thing is clear--losing farms and 
forests is not in the best interest of the Chesapeake Bay ecosystem, 
the region's economy, or the quality of life for our local communities. 
Maintaining successful, sustainable working agricultural lands is 
essential for protecting and restoring the Chesapeake Bay.
    NRCS and its conservation partners have worked with farmers in the 
Bay region for more than 80 years and are committed to continuing the 
voluntary conservation efforts that are improving water quality in the 
watershed while supporting a strong, Bay-wide agricultural economic 
sector.
    I thank you for the opportunity to be here today, and I will be 
happy to answer any questions you may have.

    The Chairman. Thank you, chief, I appreciate it.
    And also, thank you, during Ag Progress I had the privilege 
and honor of hosting a listening session in Pennsylvania with 
Secretary Russell. And you were kind enough to send your 
regional NRCS person, and she did a great job.
    Mr. Weller. Thank you, sir.
    The Chairman. Secretary Redding, you are now recognized for 
your statement.

 STATEMENT OF HON. RUSSELL C. REDDING, SECRETARY, PENNSYLVANIA 
                   DEPARTMENT OF AGRICULTURE,
                         HARRISBURG, PA

    Mr. Redding. Mr. Chairman, Ranking Member, and all Members 
of the Committee, thank you, first, for the opportunity to be 
here and to talk about the progress we have made in 
Pennsylvania on Chesapeake Bay and water quality. And I 
appreciate Chief Weller's review of what has been invested and 
the outcomes of those investments but also to echo his points 
of appreciation to the Committee, who has both the primary 
concern of conservation first, but also the underpinning of 
that is an assumption of a productive and viable agricultural 
economy, right? And that is really key for us.
    Mr. Chairman, you have heard me say many times that there 
are two coequal goals to this discussion about the Chesapeake 
Bay. One is water quality, and the other is viable farms. You 
will not achieve the first without the second. We have to 
ensure that the lands are productive agricultural lands, but as 
we know, the greatest return on investment of any funds, 
private or public, can and will be achieved by way of 
agricultural conservation practices versus others. I think that 
is an important point.
    I will do a quick summary. You have my comments. I prefer 
to respond to questions, but just to outline a few key points 
here. We have been working on this issue of the Chesapeake Bay 
for the last 40 years from the TMDL establishment in 2010. You 
heard the investments we have made through the USDA and in 
Pennsylvania. They have been significant. I would say there has 
been a lot of progress. That is not always the story told. As 
you alluded to in your opening statement, there has been a 
tremendous amount of progress made. That progress has been a 
full partnership with the agricultural community. It has been a 
full partnership with our U.S. Department of Agriculture, NRCS, 
and the conservation districts, and many NGOs who have been at 
the table to help us do that. And we have made progress.
    We have more to do. That is part of what you are here to 
talk about and want to share with you, but we have made 
progress. The Chesapeake Bay report itself speaks to the 
progress. The University of Maryland, Center for Environmental 
Science, the USGS water-quality monitoring shows there has been 
progress.
    We have reduced phosphorus by 25 percent, nitrogen by six 
percent, sediment by 15 percent. And the numbers sometimes 
don't tell the full story of the load. But they are significant 
numbers and we are making progress. We also know that this is 
one of these issues where there will always be tension between 
the aspirational and the practical. It is just how dynamic it 
is. We will work at it. We will work at it hard. But any time 
you are talking about the landscape and the complexity of this 
landscape in this region, particularly, as the chief noted, it 
is going to take a lot of work. And that is not something we 
should apologize for or shy away from. We simply have to 
acknowledge it is going to take a lot of work to get the job 
done.
    From Pennsylvania, just to put this in perspective, the 
Susquehanna River, largest contributor of water to the 
Chesapeake Bay, as you travel over the Bay Bridge, look down, 
90 percent of that water in the upper bay is from the 
Susquehanna River. It flows right through the heartland of 
Pennsylvania, and 50 percent of the total water in the Bay is 
out of the Susquehanna River. We understand our contribution 
and the magnitude of the challenge as well.
    We have continued to work with the Governor and our 
Administration across the agencies to really refocus our work 
on the Bay. As you know, we have titled this, The Reboot. The 
Reboot implies we had a plan in 2009, 2010. We worked at it 
through several Administrations. Governor Wolf returned 2 years 
ago and really put a focus on this. We knew, at that point, we 
were behind on the deliverables as laid out in 2010 TMDL. The 
difference with this effort now is it is very specific in terms 
of total load delivery and reduction expectations between 2009 
and 2025. It then sets 2 year milestones, and those 2 year 
milestones become the midterm exams that we have to do. And we 
know that we are just not quite where we want to be, 
particularly on phosphorus and sediment. We are making 
progress. Anyhow, just to say that that is a key difference 
between what the discussions were and where we are today. 
Another reason for the Committee's interest in this is, how we 
are doing both with the agriculture aspects but certainly from 
the public policy standpoint?
    Our Reboot had a number of points, six major components to 
it, looking at technical and financial assistance. It looked at 
the technology. A big component was better coordination and 
capacity of both the state and agencies looking at improved 
data collection.
    There are many points: Two that I will highlight for you 
and we can talk more about. One is the role of the conservation 
districts in the effort of our Reboot. And this has surfaced a 
number of conversations in the state, and I know those 
conversations have extended to the USDA and NRCS as well. But 
there is no question that the progress that has been made and 
the progress that still has to be made can only be accomplished 
with the partnership of the conservation districts.
    What we stepped into was an assumption that, given the 
historic relationship that the districts had with Pennsylvania 
by way of delegation agreement over the years, what we found 
was a willingness but some apprehension because of the 
comprehensiveness and the expectation of compliance checks, 
which is also part of our current efforts.
    I will just say to that point that we have made tremendous 
progress in discussions with NRCS at the state level to make 
sure that the confidentiality of the information, as required 
by Congress in section 1619, is protected. We believe that we 
have found a way by way of a signed waiver and transparency 
with that transaction for the farm community to be protected 
and to live true to what Congress was intending with the 
confidentiality and privacy of that data. We have made progress 
on that.
    But just to underscore, there is no way forward without the 
conservation districts. They have been great partners. We will 
continue to work with them as well.
    The second point, just on a statement, Mr. Chairman, you 
made at the outset about the voluntary efforts and certainly 
giving credit to producers. One of the components of our 
strategy has been making sure that we account for the everyday 
good management practices that producers are employing. The 
Chesapeake Bay model has been noted many times. The majority of 
the BMPs that are in the model are those things that have been 
cost-shared, meaning that the public has made an investment in 
them. It does not include the non-cost-share practices or all 
of them. We have taken an effort with Pennsylvania State 
University to do a non-cost-share survey. It was well-responded 
to, and we are anxious to get that information back. Penn State 
is working through it as we speak, and we hope to have that 
information for the benefit of the next version of the model.
    But even the early signs are really amazing in terms of the 
practices that we know are out there. The water quality 
monitoring has demonstrated they are, but they are not in the 
model. As you know, for a lot of producers, they want to have 
some assurance that ``if I have to do more, I want credit for 
what I have already done.'' And that really has been an 
important part of the conversation for us. Those things 
continue, but just to say that that has been part of our 
strategy for the very first time, to go out and do a 
comprehensive study with our land-grant university to ask the 
question, ``What have you done that has not been paid for by 
government and both in terms of practice and the details of 
those BMPs?'' We will have the benefit of that to inform our 
discussion and work here as we move forward.
    In summary, just to end where I began, with a thank you. I 
appreciate your leadership on the Committee and back in 
Pennsylvania. I know you travel a lot of miles around the state 
and see what we see, and that is a changed landscape. When we 
speak of issues of BMPs and cover crops and all of the good 
work that has been done, you see that firsthand, as I do. I 
appreciate your leadership and the Committee in today's 
hearing. Thank you.
    [The prepared statement of Mr. Redding follows:]

Prepared Statement of Hon. Russell C. Redding, Secretary, Pennsylvania 
               Department of Agriculture, Harrisburg, PA
    Chairman Thompson, Ranking Member Grisham, and distinguished 
Members of the Subcommittee on Conservation and Forestry, thank you for 
the opportunity to provide testimony today on our Pennsylvania-centric 
approach to restore local water quality in Pennsylvania, and by virtue 
of that, the Chesapeake Bay.
    I will provide a general overview on the current state of the 
Chesapeake Bay in Pennsylvania, highlight state and Federal 
partnerships and investments in conservation, outline the 
commonwealth's strategy to enhance Pennsylvania's Chesapeake Bay 
restoration, and share a few key thoughts related to local water 
quality efforts.
Water Quality Trends in the Chesapeake Bay
    For background on how we got here, as a result of the Federal 
consent decree in 2010, the United States Environmental Protection 
Agency (EPA) established a Total Maximum Daily Load (TMDL) for the Bay. 
Implementation of this TMDL requires us to develop plans to meet 
specific target reductions in nitrogen, phosphorus and sediment loads 
in phases. Pennsylvania's Phase 2 Watershed Implementation Plan has 
interim targets for these reductions to be achieved in 2017. We are not 
on schedule to meet its goals for 2017. The commonwealth continues to 
face immense challenges to improve water quality.
    Pennsylvania's agricultural sector is facing an enormous test, as 
it constitutes 55% of the nitrogen loads to the Bay. It must reduce its 
nitrogen loads to Chesapeake Bay by more than 40 percent (or more than 
25,000,000 million pounds) by 2025.
    Regardless of the 2017 and 2025 Federal deadlines, we have an 
obligation in Pennsylvania to the Clean Streams Law--established well 
before the EPA established deadlines for Pennsylvania under the Total 
Maximum Daily Load.
    It's about local water quality--no matter where you are located in 
our commonwealth. It's about doing the right thing. As a state, we 
realize there is more work to do; however, it is important to recognize 
the progress Pennsylvania has realized up to this point.
    Over the past 30 years, Pennsylvania has invested more than $4 
billion, mainly in wastewater system upgrades, through various loan and 
grant programs, toward Chesapeake Bay restoration efforts. The results 
show that phosphorous has decreased by 25 percent; nitrogen by six 
percent, and sediment by nearly 15 percent. The majority of these 
reductions have come from increased treatment of the discharges of 
nutrients from wastewater treatment plants.
    With 33,600 of Pennsylvania's active farms located in the 
Chesapeake Bay watershed, achieving our water quality improvement goals 
will be no easy task, and any solution--state or Federal--must balance 
the commonwealth's interests in a vibrant agricultural sector, local 
water quality, and limited state and Federal resources. Agriculture is 
ready to be part of the solution. Many people are concerned about the 
health of our local waters--none more so than farmers, who rely on our 
land and water to grow so much food.
    What remains clear to us is that Pennsylvania has been, and 
continues to make strides toward protecting and improving local water 
quality. We are pleased to hear recent reports from the Chesapeake Bay 
Program that estimated nitrogen, phosphorous, and sediment going into 
the Bay has all dropped over the last 6 years--by eight, twenty, and 
seven percent, respectively. The University of Maryland's Center for 
Environmental Science recently gave the Bay its third highest health 
score in 3 decades, noting progress in several areas. And monitoring 
from the U.S. Geological Survey indicates that the per-acre nutrient 
and sediment loads are declining at a majority of the monitoring 
stations across the five Chesapeake Bay states.
    This good news is a reflection of progress in a variety of sectors, 
including agriculture. The practices farmers use and the strategies and 
plans they have put in place are truly making a difference, but more 
work needs to be done. It's very important to note that Federal agency 
investments in conservation have, and will continue to play, a large 
role in the progress we have made. Of critical importance is the farm 
bill conservation title funding administered by the United States 
Department of Agriculture (USDA) Natural Resources Conservation Service 
(NRCS).
State and Federal Partnerships and Investments
    USDA programs have been the primary source of Federal assistance to 
agricultural producers working to improve water quality in the 
Chesapeake Bay. USDA NRCS targets their investments in high-priority 
watersheds where nutrient and sediment pollution is highest. According 
to NRCS, since 2009, they have been able to partner with state, 
nonprofit and private-sector partners to install conservation systems 
on more than 1 million acres in the basin. This equates to more than 
$267.2 million invested in Pennsylvania since 2009. This investment 
includes hundreds of nutrient management plans and the implementation 
of a variety of practices, such as structural practices, tillage 
management and cover crops. There is no doubt that without the strong 
support of NRCS through farm bill conservation title program funding 
for on-farm conservation practices, we would not be where we are today. 
The numbers tell that story.
    Pennsylvania farmers actively seek USDA assistance, with more than 
$100 million in applications coming to the NRCS annually. 
Unfortunately, both Federal and state resources are limited, even with 
significant Federal investment in conservation programs. In Fiscal Year 
2016, applications from Pennsylvania's farmers to the USDA 
Environmental Quality Incentives Program outpaced available funds by 
more than 5:1 ($100 million in requested funds vs. $20 million in 
available funds): 65 percent or $52 million of the unmet need comes 
from the Chesapeake Bay portion of the commonwealth.
    Given this unmet need statewide, leveraging innovative private-
sector partnerships are more important than ever.
    An example of the power of partnerships unfolded recently as the 
Pennsylvania Department of Agriculture (Department) was awarded more 
than $632,000 under the National Fish and Wildlife Foundation's 
Innovative Nutrient and Sediment Reduction grant to support farmers' 
local water quality improvement work in southern Lancaster County. The 
Department partnered with 16 other organizations from the public, 
private, and nonprofit sector to leverage an additional $909,000 in 
matching funds, meaning that more than $1.5 million will be directed to 
improving the health of Pennsylvania's rivers and streams. The unique 
aspect of this project is the connection it will demonstrate between 
conservation, herd health, and farm profitability. The project will 
give farmers in the targeted watersheds a suite of tools, or adaptive 
toolbox to be able to do the things that not only achieves a baseline 
level of compliance, but that are also best for their operation.
Commonwealth Strategy to Improve Water Quality
    While Pennsylvania has made strides toward improving local water 
quality, it needed to change its approach for the Chesapeake Bay. 
Working with a number of external partners and stakeholders, in January 
2016, Governor Wolf unveiled a comprehensive, Pennsylvania-centric 
strategy aimed at improving local water quality in this commonwealth--
and with that, the Chesapeake Bay. The strategy represents a 
reasonable, incremental and balanced approach to improving local water 
quality by reducing nitrogen and sediment loads in Pennsylvania 
waterways that will ultimately restore the water quality of the 
Chesapeake Bay. The strategy relies on a mix of technical and financial 
assistance, technology, improved data gathering and record-keeping, 
improved program coordination and capacity and, when needed, compliance 
and enforcement measures.
    The strategy also recognizes two key, co-equal goals for success: 
clean water and viable farms. Our farmers have long recognized the 
important link between healthy soils, sustainable farming practices, 
and the water quality of our waterways. When we have healthy, viable 
farms, we have healthy, viable watersheds. You can't have one without 
the other.
    There are six elements to the plan:

  1.  Addressing pollutant reduction deficiencies by meeting the EPA 
            goals of inspecting ten percent of farms in the Bay 
            watershed annually, with increased inspection and 
            compliance efforts using existing Pennsylvania Department 
            of Environmental Protection (DEP) and conservation district 
            staff.

  2.  Quantifying previously undocumented best management practices 
            (BMPs), and putting new high-impact, low-cost BMP projects 
            on the ground in watersheds that are currently impaired by 
            agriculture or storm water.

  3.  Improving reporting, record-keeping and data systems to provide 
            better and more accessible documentation of progress made 
            toward Pennsylvania's restoration effort.

  4.  Identifying legislative, programmatic or regulatory changes that 
            will give Pennsylvania the additional tools and resources 
            necessary to meet water quality goals.

  5.  Establishing a new Chesapeake Bay Office within DEP to coordinate 
            development, implementation and funding of Pennsylvania's 
            Chesapeake Bay efforts.

  6.  Obtain additional resources for water quality improvement by 
            seeking new sources of funding.

    I would like to highlight two areas in particular: the role of 
conservation districts in the inspection and compliance efforts (and 
lessons learned), and our efforts to quantify undocumented best 
management practices.
The Role of Conservation Districts
    In order to help get the commonwealth back on track to meet the 
mandated reduction goals, ten percent of Pennsylvania farms in the Bay 
watershed will be inspected annually to ensure they have written plans 
for manure or nutrient management and erosion control. These mandated 
reduction goals, paired with our collective challenge of both state and 
Federal diminishing resources, especially on the human capital side, 
has made the task of ten percent farm inspections difficult, and has 
required us to think broadly about conservation service delivery. It 
has forced a conversation about agricultural compliance and about how 
to best deliver and implement plans.
    Our preferred approach to the challenge of ensuring base-level 
compliance on ten percent of farms in the Bay watershed is to use our 
county conservation districts. Conservation districts are trusted, 
local partners with well-established relationships with farmers across 
Pennsylvania. With approximately 33,600 farms in the Bay watershed 
alone, we needed to think broadly and follow an approach that we feel 
is in accordance with the historical practice of conservation 
districts. Historically, conservation district staff has had a role in 
compliance inspections under Pennsylvania's Chapter 83 Nutrient 
Management and Chapter 102 Erosion & Sedimentation regulatory programs 
for decades. In particular, the Nutrient Management program's annual 
compliance inspection of farms by a conservation district staff person, 
with follow up enforcement action (if necessary) by the State 
Conservation Commission, is a model for this strategy.
    Conservation districts in 29 Pennsylvania counties in the Bay 
watershed have applied successfully to conduct farm inspections aimed 
at reducing agricultural runoff into local streams and rivers and 
ultimately, the Bay. As a result, these districts will continue to 
receive funding to support bay technician staff from DEP. Nine 
conservation districts failed to meet the application deadline or have 
declined to participate. The remaining three counties in the Bay 
watershed have such a small portion of the watershed they have not 
received funding for a Bay technician in the past. Farms in the Bay 
watershed in these counties will be covered by DEP or EPA personnel.
    The participating conservation districts will be inspecting 50 
farms per full-time person funded in each county. The goal is to start 
these inspections by the beginning of October. DEP regional staff has 
already started inspections in some of the counties that have chosen 
not to participate. The initial compliance inspection focus will be on 
ensuring that farmers have Manure Management Plans and Erosion and 
Sedimentation Plans--requirements that have been in law for over 3 
decades.
Lessons Learned
    We would like to reiterate our commitment to working with the 
conservation districts to accomplish Pennsylvania's comprehensive 
strategies to clean up the Bay. The 66 districts across the 
commonwealth are a critical first line of engagement with our farming 
community. We acknowledge the positive contribution that districts have 
made and recognize the challenges that they, like many in public 
service, face in carrying out their charge.
    Since January 2016, a number of lessons have been learned as it 
relates to conservation work and the strategy put forth by the 
commonwealth. We made a number of assumptions on the front side that 
the roles and responsibilities of conservation-related work are well-
defined. Each conservation district is unique, has its own set capacity 
and capability, and has differing thoughts on the role that district 
staff plays in conservation. This has caused us to think hard about the 
level of capacity for conservation work and how to structure the roles 
and responsibilities. It has caused us to step into the compliance 
conversation and ask questions about how to best deliver and implement 
conservation plans. And where conservation districts choose to not 
conduct compliance visits, we've had to think about which entity is 
best positioned to step into the compliance role--whether it be the 
private-sector, DEP, EPA, or the Pennsylvania State Conservation 
Commission. There is no perfect solution.
    A second lesson learned was how to manage and protect confidential 
data. One intricacy that proves the connectedness between the 
commonwealth and NRCS is the fact that farmers may use their NRCS 
Conservation Plan in order to satisfy Pennsylvania erosion and 
sedimentation regulatory requirements. In doing so, however, it leads 
to more questions about privacy and maintaining confidentiality.
    Over the past few months, discussions have ensued on Section 1619 
of the 2008 Farm Bill and other Federal protections of the content of 
agricultural plans. Section 1619 provides that USDA, or any 
``contractor or cooperator'' of USDA, are prohibited from unilaterally 
or voluntarily providing or disclosing information provided by farmers 
or landowners participating in a NRCS program to a third party.\1\ In 
the current situation, conservation districts in Pennsylvania are 
considered ``cooperators'' and DEP is considered a ``third party.'' 
NRCS-funded plans represent many plans that are currently in use in 
Pennsylvania. The Federal prohibition does not extend to DEP, as DEP is 
not a cooperator as that term is defined by relevant Federal law.
---------------------------------------------------------------------------
    \1\ 7 U.S.C.  8791.
---------------------------------------------------------------------------
    The concern that has been expressed on behalf of NRCS and the 
conservation districts is that they do not want to violate the Federal 
prohibitions in conducting work for DEP under the Chesapeake Bay 
Standard Operating Procedure manual (the manual outlines the role of 
conservation districts in the commonwealth's Chesapeake Bay strategy). 
The dilemma appears to come from the fact that conservation districts 
are in partnership with both NRCS for certain purposes, and with state 
agencies for certain purposes. As an example, conservation districts 
have been delegated authority from DEP for the implementation of 
Erosion and Sediment Control regulations, which includes agriculture 
compliance. It is the overlap of those partnerships at the conservation 
district level, and the duties and obligations that come with both of 
those relationships that seems to create the dilemma for conservation 
districts as well as for state and Federal agencies.
    If conservation districts are to continue to operate in this dual 
role and under these two different sets of parameters, we need to find 
a way to meet state needs, Federal needs, and conservation district 
needs, and do so in a way that recognizes and protects each of these 
interests. As always, this will be a balancing act and compromise will 
be necessary.
    As a temporary solution to this dilemma, DEP is in the process of 
designing their own release form for conservation district and DEP 
regional staff to use in the collection of information during the 
inspections. This form complements the NRCS form. If a producer (at 
least in this first year) needs to sign both a state and Federal form 
to help ensure that they have properly acknowledged the release of 
their USDA information and also acknowledge the purpose and intent of 
what they are releasing that information to DEP for, then that 
compromise seems to remove the road block. This compromise also 
provides us with time to work through these legal and policy issues in 
hopes of a satisfactory long-term solution.
Quantifying Undocumented Best Management Practices
    Our plans to locate, quantify and verify previously undocumented 
BMPs represent a new and unprecedented partnership with the agriculture 
industry and the academic community. We want Pennsylvania farmers to 
obtain maximum credit--both publicly and in the Bay model--for the good 
work they are doing. Therefore, a survey was developed by The 
Pennsylvania State University and funded by DEP in late 2015 in 
collaboration with many partners, including the Department, DEP, 
Pennsylvania Farm Bureau, PennAg Industries, Professional Dairy 
Managers of Pennsylvania, Pennsylvania Farmers Union, the Pennsylvania 
Association for Sustainable Agriculture, the Pennsylvania State 
Conservation Commission, and the Pennsylvania Association of 
Conservation Districts.
    The purpose of the survey was to inventory conservation practices 
implemented by farmers across the Chesapeake Bay watershed. We know 
that Pennsylvania farmers have done much to improve water quality and 
soil health, yet many of the practices that farmers have implemented 
are not accounted for in tracking progress toward priority water 
quality goals. This is especially true where farmers have implemented 
practices on their own initiative, using their own means to do so. The 
survey inventoried these practices by providing a mechanism to capture 
and report voluntary conservation practices.
    The survey was launched online in January 2016, and was 
subsequently mailed to approximately 20,000 farmers. Approximately 
6,780 completed surveys were returned, a response rate of 35%. The Penn 
State Survey Research Center received all surveys, and processed all 
data. Ten percent of survey returns were randomly selected for on-farm 
follow-up visits in order to analyze the accuracy of the data and 
develop a statistical analysis of the surveys returned.
    Penn State Extension staff conducted the farm visits in August, and 
all visits have now been completed. The research team is now in the 
process of entering and analyzing farm visit data so that statistical 
analysis can be completed. A final report will be given to DEP for 
submission to the Chesapeake Bay Program by the end of September. We 
look forward to reviewing the data analysis once complete and hope to 
confirm a high level of conservation stewardship already occurring on 
farms across Pennsylvania.
Moving Forward
    Moving forward, our obligations to water quality--locally and in 
the Chesapeake Bay will not go away--they aren't something we can 
ignore. We all have a role in the health of our waterways, and 
agriculture is a key part of the solution.
    We must continue to consider the practical side of things, viewing 
how rainfall, droughts and planting seasons impact our work to protect 
our waterways. Like many things in life, there is a tension between the 
aspirational and the practical. There are a lot of variables in this 
discussion that can create tension, but we believe it can be a healthy 
tension. Our collective job is to take the aspiration of cleaner water 
and a healthy ecosystem and apply it practically.
    If anything is clear, it is that agriculture has high standards for 
conservation, with deep roots in a culture of stewardship. Farmers want 
to be the solution for clean water, and do not condone poor managers 
who are causing water quality problems. We need to continue to 
recognize farmers for their high conservation standards, especially 
given the multiple and competing expectations of agriculture in the 
21st century--job creators, food providers, economic drivers, and 
environmental stewardship.
    We must continue to develop and deploy effective targeting in high-
priority areas, integrate soil health and manure management into water 
quality strategies, support community-based and locally led approaches 
to conservation, collaboratively seek new funding opportunities, and 
engage all stakeholders--Federal, state, local, public, private, 
nonprofit--in our approach to local water quality.
    Local water quality in Pennsylvania is a shared responsibility, and 
we believe that collaboration, partnerships, commitment, and resources 
are the key to the success of the effort. If every farmer, community 
and citizen does their part, we will restore and safeguard local water 
quality in Pennsylvania, and help to restore the quality of the 
Chesapeake Bay.
    Thank you for the opportunity to comment.

    The Chairman. Mr. Secretary, thank you.
    Once again, I want to thank you both for your leadership, 
quite frankly, for our agriculture industry and, specifically, 
as we look at making sure the watersheds have good drinkable 
water, quality water. Nobody disputes that. I think that is 
100% consensus of how basic and fundamental and important that 
is.
    I also believe in a couple of truisms. One of them, if it 
is not broken, why are we fixing something? With the 
Pennsylvania Reboot, and there are some really good parts to 
that, but there are some concerns I have obviously with what 
appears to be moving away from the model of voluntary 
conservation, which is really impressive, thank you both for 
reflecting on what we have accomplished using voluntary 
conservation, and you didn't even throw in all the endangered 
species that we have de-listed as a result of voluntary 
conservation. I happen to think what we are doing actually 
doesn't so much need a reboot because I think the shoe fits for 
what we are trying to accomplish. Now, certainly, with some of 
the initiatives it is always good to look at how we are doing 
things.
    My first question is for Chief Weller. Chief, as you state 
in your testimony, with technical and financial assistance from 
NRCS and the farm bill conservation programs, farmers in the 
Bay watershed are successfully installing conservation systems 
that are improving water and air quality and enhancing habitat, 
wildlife habitat throughout the Chesapeake Bay. An important 
part of that question is that technical assistance and 
conservation delivery provided by local conservation districts, 
who I have tremendous respect and they are just an incredibly 
important partner. I take the opportunity to go out and to 
visit our conservation districts when I can. My last one was in 
Erie County. I attended their annual luncheon and a regular 
meeting that they had. Are you worried that with Pennsylvania, 
for example, with what is happening in Pennsylvania with the 
Pennsylvania Department of Environmental Protection's proposal. 
I get it; it is because of threatening of withholding moneys, 
EPA withholding moneys from the Pennsylvania Department of 
Environmental Protection, who therefore would hold moneys, hold 
ransom our conservation districts, which would cost us some 
pretty important positions of great scientists who are working 
with our conservation districts today. I get where the pressure 
point is. Are you worried, with what is happening with 
Pennsylvania, that districts will have less time to actually 
deliver on-the-ground conservation, on-the-field technical 
assistance, and stress the conservation delivery system in an 
area where demand for conservation is so high?
    Mr. Weller. Let me begin with answering and recognizing the 
importance of the districts. NRCS, when we were born 81 years 
ago, we were the Soil Conservation Service, 1935. At the same 
time, we were born alongside across states during that era with 
soil and conservation districts across the country. And we grew 
up together. We are collocated together. If you were to walk in 
one of our field offices, more often than not, we are 
collocated. You wouldn't know where the local district began 
and where the NRCS ended. They are teams. They share in 
everything. And so they are part and parcel of the overall 
infrastructure to deliver a voluntary approach.
    I am also very sympathetic to what Secretary Redding has 
laid out and the charge that state government is trying to 
address their needs and challenges in the state. But from my 
perspective, just looking at our capacity, just at NRCS, to 
deliver conservation, starting with the conservation planning 
but then taking advantage of the resources through the farm 
bill programs and working with producers, since 2010 to 2015, 
across the entire Chesapeake Bay watershed, because of funding 
reductions, NRCS has 155 fewer field office employees today 
than we did back in 2015. In Pennsylvania alone, we have 55 
fewer field-level district conservationists to do on-the-ground 
conservation that we had just 5 years ago. To help pick up the 
slack, you have to have partners to help us continue to carry 
the ball, to do that, conservation planning and delivery.
    And so to the extent that those very limited resources are 
already stretched thin, are then diverted to other activities, 
that is just going to make it harder to take advantage of the 
resources through the farm bill, to go out and do one-on-one 
consultative support with the producer, and ultimately, it is 
going to make it much harder to deliver a voluntary approach 
for conservation.
    The Chairman. Conservation districts have a special 
relationship, obviously, with producers, because a trust factor 
has been built over many decades. As producers see district 
employees, they are there to help. They are there to help, I 
would say not in a punitive; it has never been in a punitive 
manner. But it has always been in a cooperative, consultative 
capacity. Because of this trust factor, districts can bridge 
the gap between producers and government agencies, both state 
and Federal.
    That being said, I am concerned, and I understand the short 
game, because when you have an agency, the EPA, and Washington 
is threatening withholding funding that have been appropriated 
by this body, they are there to execute what we appropriate, 
and yet they are changing and they are arbitrarily implementing 
their roles. They are actually, to some extent, they are 
legislating, which is not within the Constitution what they are 
supposed to do. I get the short game of the threats of the 
personnel needs, because I have met these folks, the boots-on-
the-ground, and they are good people. They have great 
education, great background, and they are dedicated to serving 
or advancing conservation practices. But that trust issue, I am 
just very concerned that the Pennsylvania Department of 
Environmental Protection finds themselves in a position, 
because of the influence of the EPA, which I don't think they 
really have the authority to do, quite frankly. I don't 
remember anything that we have done authorizing or 
appropriating that would allow them this hammer, especially 
when the EPA regional director from Philadelphia has been in 
this hearing room and has told us that the Chesapeake Bay is 
not a regulation, which pretty much knocked most of us out of 
our seats, because it sure sounds like a regulation when you 
look at the punitive consequences of not adhering.
    But it really comes down, and I am concerned what the 
breakdown, what this does to the trust, where the requirements, 
the districts begin doing compliance checks in order to 
continue receiving funding for bay technician staff only will 
erode this relationship. If districts lose this trust due to 
the uncomfortable position EPA has forced them into, we will 
only serve to hamper the conservation delivery system.
    I divide this into a short game and a long game. The short 
game is, I get it, the financial pressures, being held for 
ransom financially. But the long-term game is what concerns me 
because trust is inherently a part of voluntary conservation. 
And all the great gains, the percentages, sediments, the TMDLs, 
the phosphorus, the nitrates.
    And you put it into such great perspective because you 
talked about the urbanization, that headwind, that pressure, 
that growth since I was first elected to serving this body in 
2008. You compound that with what we never account for, those 
periodic 100 and 500 year floods, which seem to be coming a 
whole lot more often than that, that just wash over those 
banks. And there is not a thing that we can do about that, not 
a thing that we can do about stopping those things that have 
always occurred that wash all the phosphates and nitrates that 
were safely safeguarded, except for those occasions of those 
massive floods.
    What is your perspective on the long-term game? Because I 
am concerned that if we lose the trust with the voluntary 
conservation programs, which means that, over time, we will 
begin to lose ground on cleaning our watersheds as farmers and 
ranchers become more guarded about allowing, whether its NRCS, 
whether it is conservation districts, whether it is the ag 
extension folks, onto their farms and ranches.
    Mr. Weller. If I may, in listening, sir, to your question 
and your remarks, I am reminded of a different region of the 
country but a very eloquent producer. This was in Denver, 
Colorado, when Secretary Jewell announced we were not going to 
list the sage-grouse because of a voluntary approach to 
managing range country in the West. There was a rancher from 
Nevada. His name is Duane Coombs. In my view, he stole the show 
at this event, in part because he spoke for the land, but he 
also spoke for his community and the people that work the land. 
He was very eloquent when he said, I am going to paraphrase 
what he said, good conservation is good government. And that 
empowers people. It empowers communities, and it gives dignity, 
in his words, to the little people.
    But he also talked about how a collaborative voluntary 
approach, where you built trust with landowners and 
communities, can help change the relationship between people 
who live on the land and the government. And he was starting to 
see a shift in the winds in a part of the country where there 
has not, frankly, been a great relationship between landowners 
and the Federal Government, and he was very optimistic for the 
future.
    Shifting here back to the Chesapeake Bay and to your 
question on trust, it is fundamental. What a lot of our 
colleagues in the environmental community don't recognize is we 
are only there on that farm but for the invitation of that 
landowner. And more often than not, I just spoke to a producer 
yesterday, in fact, from Texas, and she was relaying to me some 
concerns she had, but how she worked with NRCS, invited her 
into her kitchen, and sat at the table for 8 hours working 
through her agricultural operation and identifying what are the 
best approaches to address her resource-management challenges 
on her farm. That doesn't happen with very many other Federal 
agencies where you are literally invited to a homeowner's 
house, at the kitchen table, and you are part of, many cases, 
the family, but you are looked at as a business partner. If you 
lose that trust and people suspect you have other motives or 
they suspect or fear that what they are going to share with you 
will be used for other purposes, the long view I share a 
concern with what may happen to that invitation and to that 
willingness for people to open their farm gate.
    The Chairman. Thank you very much.
    I am pleased to recognize Ms. Kuster for a line of 
questioning and consume as much time as you would.
    Ms. Kuster. Thank you, Chairman Thompson.
    The Chairman. I don't think we are pressured for time.
    Ms. Kuster. Thank you. Well, I appreciate it.
    Thank you to our witnesses, Chief Weller and Secretary 
Redding, for being with us today.
    I am impressed by the progress here of the Chesapeake Bay. 
It is an area of incredible ecological diversity and pristine 
natural resources. And I wish you well in your continued 
efforts.
    I wanted, if you wouldn't mind indulging me, to turn our 
attention to my farmers in New Hampshire. I can't say we have 
many ranchers, but a few. As a Member of this Committee, I have 
had the privilege of representing hundreds of farms throughout 
my district. And I have spent a lot of time visiting with 
farmers around who participate in NRCS cost-share programs. But 
the one piece of this that I keep hearing recurring frustration 
about is the annual SAM DUNS, is that how we refer to it, 
reporting requirement. The producers that I have spoken with 
were frustrated that this regulation puts small farmers on the 
same playing field as entities that receive multimillion dollar 
contracts, such as large military contractors, but in New 
Hampshire, the average NRCS contractor is around $20,000. The 
paperwork is overwhelming.
    Can you tell us, and this is to Chief Weller, what 
producers are telling NRCS field offices about the regulations? 
What I keep hearing, just to be specific, is that my producers 
are confused about the process. What I am worried about is it 
is acting as a barrier to entry to some producers who want to 
participate in the conservation program but are just getting 
tangled up in red tape.
    Mr. Weller. I am very cognizant, but I am appearing for the 
body that writes the laws. We don't get a choice on what laws 
we choose to implement or not.
    Ms. Kuster. That is fair. We are asking, what do we need to 
change in the upcoming farm bill? If it is not on you, it is on 
us. We will take it on us. And be specific about what would 
need to change.
    Mr. Weller. To your question, ma'am, there is a lot of 
concern, and it is not just from producers, landowners, forest 
landowners, producers in New Hampshire. This is virtually in 
every state. When I go on the road, I think about every farmer 
I visit with this is what I hear. And then I get in the cab of 
the truck and visit with the NRCS staff, and I get an earful. 
It is a concern. And so it is a little bit responding to the 
previous question about trust. It is also, frankly, about the 
brand. If your brand is, what you offer is a lot of paperwork 
and red tape, it makes it really hard to get people to want to 
come in and work with you. Again, long view, I am a little bit 
concerned.
    Short-term, we have been able to work through it. I will be 
honest: it has been a burden on the men and women in the field. 
It has been distracting them from their day-to-day jobs. We 
have had to go back and review 15,000 active EQIP and CSP 
contracts this year. The value of those contracts is 
approaching $1 billion, and these are active contracts that 
were hung up on this issue.
    Ms. Kuster. And what is it specifically? What is the hang 
up?
    Mr. Weller. The requirement, there are these two different 
systems. You have to get a DUNS number, DUNS Bradstreet number, 
and then you have to have a System for Award Management number, 
which is a separate system. It was, my understanding, put into 
a Military Construction Authorization Act. It was meant to 
really address large contractors that work with the government. 
If a farmer files his or her taxes as an entity, a joint 
operation, or an LLC, which many producers do, they are 
required to basically register with the government because they 
are receiving a direct payment from the Federal Government. It 
is a way, big picture, for the government to ensure we are not 
improperly paying corporations that have some issues, tax 
liabilities, or shouldn't be paid. I don't think it was 
intended to, in this case, impact the producers, landowners.
    Unfortunately, these SAM numbers require the producers to 
go to this website, and it requires an annual renewal. And so, 
for a lot of folks, they would get their number, but then their 
number would expire. Separately, and I am sorry to get 
bureaucratic, but----
    Ms. Kuster. That is all right. We need to get into the 
weeds to fix it. The one thing we can agree on: we are not pro-
red tape. We would like to work together to get rid of it.
    Mr. Weller. Okay. We are required then to ensure producers 
have their numbers and are valid and are current. If they are 
not, we legally cannot make a payment. We are working very hard 
to educate producers. We are helping to provide as much help to 
get their numbers going. But, frankly, it is something at the 
end they have to get. I would be happy to work with your 
office, with this Committee to go a little bit deeper into what 
the issues are and look for some options to help reduce the red 
tape.
    Ms. Kuster. I would love to. And see if we can't 
streamline. My other committee is the Veterans' Affairs 
Committee, so you can imagine I am used to red tape. But it 
would be great if we could help our producers, and I have a 
bill in now about exports for a one-stop shop in the Department 
of Commerce, because for a small business in my district to 
make a terrific product and try to sell it overseas, Make It In 
America, and we can bring those dollars here and be successful, 
but they have to go to 25 different places to get the 
permission. I am a big fan of cutting through red tape. Thank 
you. I would like to work with you on that.
    The other question I wanted to bring up to you, and this is 
a self-serving pitch for a bill of mine, H.R. 5451, Improving 
Access to Farm Conservation Act of 2016. This is a bipartisan 
bill and, again, cutting red tape for producers who are 
interested in participating in voluntary conservation programs. 
I would love to get my colleagues to take a look at it. It is a 
win-win for these producers who want to improve conservation 
practices on their farms and would be helpful for NRCS field 
staff who can spend less time sitting behind their desks 
dealing with the paperwork and more time in the field providing 
technical assistance. I am hoping that this Committee will 
bring up the bill during the next markup. I very much thank you 
for being with us, and I will follow up offline with the chair 
here to see if we can get some movement and try to get some 
relief. Thanks very much.
    Thank you.
    The Chairman. I thank the gentlelady.
    Let me take the liberty of a couple more questions. I know 
that we are coming up on some time limitations Secretary 
Redding has with his schedule.
    But, Secretary Redding, this Committee has had serious 
concerns with the Chesapeake Bay TMDL from the beginning for 
fear it would unfairly punish states for not meeting certain 
benchmarks. Part of that is our concern that all of the great 
things that we do in agriculture don't always get measured, nor 
do we get credit for it.
    Do you believe that Pennsylvania is being unfairly 
scrutinized for its perceived lack of progress in Bay 
restoration efforts? And do you believe that the EPA is 
recognizing all conservation activities that farmers and 
ranchers are not just voluntarily implementing but, based on 
those most recent reports, multiple reports that are being 
documented, great outcomes?
    Mr. Redding. Mr. Chairman, thank you. I wouldn't say that 
we feel like we are being--well, we are scrutinized for sure. 
Any time you are talking about a watershed of this size and the 
number of people who live here and have an opinion about it--
and it is right in our nation's capital--there are a lot of 
folks watching that water body very closely. We certainly feel 
the pressure and feel the heat of questions being raised about 
our progress on the TMDL.
    The challenge has been for us is, given the scale of this, 
to have some appreciation by the EPA of the number of farms and 
the size of the state. As an example, there are 33,600 farms in 
the Chesapeake Bay watershed. And since Delaware has been 
referenced several times earlier, I will just say you can put 
all the agriculture in the State of Delaware in the county of 
Lancaster as an example, just to put this in scale: 5,000+ 
farms in the county of Lancaster alone, \1/2\ of those Amish.
    The frustration has been not an acknowledgment that we have 
a deliverable. We understand we have a timeline, but you have 
to have an appreciation for what has been done, and that gets 
back to having a good baseline of the non-cost-share practices 
that have been invested in. You have to have a good baseline of 
where you need to make particular investments, where you have 
the capacity to make the investments.
    The frustration has been more in not acknowledging that 
every state in this Chesapeake Bay watershed is equal. And if 
that is true, then you have to have some commensurate 
allocation of resources to go with it. And we think you have to 
have some commensurate timelines that are in keeping with the 
scale of the problem, right, that you have to keep looking at 
that issue. So that has been a challenge.
    The bigger one, or at least part of that, has been the 
narrative, is that it is always about what you have to do yet 
versus what have you done in the last 30 years that has brought 
us to the moment where anybody driving these roads in this 
region says, ``This landscape has changed''? It has changed by 
population. It has changed by infrastructure. It has changed in 
so many ways, and it has changed agriculturally. It is this 
frustration of, we had the TMDL; we will manage that; we are 
going to have to have an honest conservation about whether we 
can make the mark on all of the original timelines and 
milestones that were laid out, but we will make our best effort 
to get to 2025. But we also want to make sure that we are 
giving credit to the producers who are doing everyday good 
management practices, that we can meet the two coequal goals, 
because if you rush past the water quality and say that is the 
only indicator of success, then we trade away an incredible 
economic resource or quality of life in this region that we 
don't want to do. That is the coequal goals piece.
    It is going to be a constant discussion. We would simply 
ask for transparency. We would ask for an acknowledgment that, 
as we have done in Pennsylvania with our State Conservation 
Commission, that we recognize the equilibrium that you have to 
find between environmental issues and agricultural issues. That 
has not always been evident in discussions about only the TMDL 
and whether we are successful. I appreciate the question.
    The Chairman. Mr. Secretary, how much of a role, if any, is 
the EPA playing in terms of its directives or threatening 
withholding of funding on using conservation districts to 
conduct compliance checks? And if so, isn't that the role of 
the states to regulate and enforce how farmers operate?
    Mr. Redding. Yes, so in the design of this and why I 
mentioned the role of conservation districts in the testimony, 
we have used them, and will need them, going forward. And to 
the point made about trust, there is clearly, when you ask the 
farm community who would they prefer to have on the farm, they 
would like to see the local conservation district personnel and 
realizing that may sometimes look like NRCS personnel just 
because they are commingled there. But it is going to be a 
local presence would be preferred. And we would prefer that as 
well at the state level.
    Now, the EPA certainly has jurisdiction over the 
concentrated animal feeding operations, the CAFO permits, as 
you know. But for all of the others, the preference from our 
standpoint would be either state or local.
    What we have experienced in the last couple of months has 
been, in the absence of conservation districts or the states 
being either as aggressive as needed and/or as comprehensive as 
needed, that the EPA would do some farm visits, even to the 
non-CAFO permit holders.
    It is not forced upon, but as we know in the Watershed 
Implementation Plan, the WIPs as they are referred to, and 
these milestones, if there is not progress the way that the 
TMDL is set up, the EPA certainly has the right to inquire, to 
request, to encourage, and, in some cases, to farm visits. That 
is not our preference by far. The preference is to do that with 
districts for the state.
    The Chairman. And then my final question is for both of 
you. It may not be a fair question for folks who are 
agricultural leaders, but we have talked, obviously, our focus 
here has been on agriculture and agriculture's role in keeping 
our watersheds clean. But, as we talked the word urbanization 
has been mentioned a few times. And we all know the pressures 
that our states within the Chesapeake Bay watershed have been 
under, specifically Pennsylvania, from my perspective. And we 
know the great work that's been done.
    And, Secretary, thank you for your leadership on the 
voluntary conservation, things that we are not getting credit 
for, clearly, because you wouldn't get those types of 
reductions in phosphates and nitrates and sediments without all 
of those efforts.
    But I am curious, do either of you know what kind of 
difficulties and challenges on our agricultural community that 
have been, pressures, I guess. Any perspective on what measures 
are being pursued on the whole urbanization issue? And I am not 
saying that is under your jurisdictions, but obviously, being 
involved with the watersheds, I would be curious to see what 
the rest of the story is. With those pressures, chief, that you 
reflected on, are there measures being taken to deal with the 
urbanization within the watershed, specifically along the 
Chesapeake Bay itself?
    Mr. Redding. Mr. Chairman, I will say two things and then 
defer to the chief.
    We believe long-term, given that the TMDL carries through 
2025, but as I have said many times, this is a question of what 
we do in the next 25 to 50 years, not what we do in the next 
10. If we really are serious about meeting the two coequal 
goals that we have established for water quality in the TMDLs, 
so we have to be thinking long-term.
    Long-term, we believe that the answer is found in a 
combination of partnerships of local urban centers in rural 
communities that you simply have to have a way to address 
either nutrient trading, you have to bring stormwater into the 
conversation long-term about how you manage nutrients. And, 
personally, you stop worrying about the sector allocations and 
the pie, as we refer to it, and look at the water quality 
outcomes. If you do that, then you start having really 
important conversations about how you have folks in the 
community who have to coexist look at the issues of water 
resources and the natural resource management of the community. 
That is important.
    Very specifically, then, one of the issues the farm 
community has pointed out numerous times to us in Pennsylvania 
is that there is not a requirement for commercial fertilizer 
application on lawns. Okay? They can simply do that. There is 
no reporting. There is not a credential as there is, in 
comparison, to if somebody is doing that in an agricultural 
enterprise. There is a whole other set of record-keeping; there 
is a set of credentials.
    We have a piece of legislation ready to go for the state 
that will close that gap and make it a requirement for the 
person doing fertilizer application to be credentialed to do 
so, that there will be record-keeping requirements so we know 
where the fertilizer is being applied and how it is being 
applied. And that will get to that discussion of both the 
shared responsibilities in many neighborhoods for water 
quality. And that will be where a lot of folks in urban centers 
touch that Chesapeake Bay, right, or the Susquehanna in our 
case.
    I think that will be an important change, because it will 
help change the narrative. It will help bring that back to 
communities and push this issue beyond an agricultural 
conversation where it is at the moment.
    The Chairman. Thank you, Mr. Secretary.
    Chief, any thoughts in terms of how we mitigate the 
urbanization side of this issue?
    Mr. Weller. Well, I am not the overall expert in what 
localities and developers are doing for stormwater management. 
But I would like to just build upon what Secretary Redding laid 
out in that there is also hints at an opportunity for 
agriculture, for working lands, is something at NRCS we have 
also been trying to support, and that is this notion of 
trading, of using market mechanisms.
    For example, just here in Washington, D.C., D.C. Water, a 
couple of years ago, had to encumber ratepayers in the city 
with a 100 year $1 billion bond to retrofit the city stormwater 
and wastewater treatment system, which is by setting that 
aside, a huge debt but also an environmental justice issue for 
a lot of folks who live in this community.
    Setting that aside, could there have been opportunities for 
D.C. Water to instead partner with producers of the Potomac, to 
work with the watershed itself and partner with them to put in 
place lower cost practices that will be, frankly, good for 
production, better nutrient management, better tillage 
practices, better pest management that would have the same, if 
not more, effect on overall water quality flowing here in the 
Bay, that would have been a lower cost to taxpayers, 
ratepayers, here in the city, would have encumbered communities 
with less long-term debt, but then also, frankly, would have 
been, again, that positive feedback, that investment in 
agricultural infrastructure that is going to help provide for 
the long-term productivity of the lands.
    We have been, in trying to provide some seed money, venture 
money in this here in the Bay, in Maryland, Virginia. I would 
be very interested in exploring opportunities in Pennsylvania. 
Is there a way you could actually not just get money for your 
grain crop or for your dairy products but a producer could then 
also get some additional financial incentive to provide for 
cleaner water for ratepayers downstream but do it in a way that 
is not a regulatory burden but is, instead, a more 
collaborative positive approach.
    There are examples of this in a small scale nationally. We 
are very interested and excited about this, but we haven't yet 
cracked the code to get this at scale. This is a big 
opportunity here in the Chesapeake Bay.
    The Chairman. Well, it sounds like a great opportunity for 
the agricultural community. I am not sure it is doing much for 
stopping the progressive contributions of chemicals or 
phosphates, nitrates, all the things that we have been 
battling. Urbanization, as you know, obviously continues. And 
development, it is hard not to have that happen. The trading 
credits, obviously, are a credible tool that many are looking 
at, but I am not sure it is a solution in getting the Bay 
cleaner, quite frankly.
    And I did promise that was my last question, but just a 
clarification. There is a lot of heartburn and concern on the 
part of the Committee, who worked so long and hard on the farm 
bill, in terms of maintaining confidentiality of farmers. And I 
just wanted to revisit that.
    Just briefly, Secretary Redding, looking at, and I get the 
idea of a voluntary confidentiality waiver. Quite frankly, if 
your Member of Congress is working with you for any reason, 
first thing we do is we get people to sign that waiver form. 
They are eager to do it, because they have approached us about 
resolving their problem. But how does that work if they choose 
not to do that, not to provide that information, are they then 
automatically, technically out of compliance and, therefore, 
potentially subject to some type of a penalty?
    There is kind of an oxymoron between the words voluntary 
and compliance. They just usually don't fit very well together.
    Mr. Redding. Yes. It is voluntary but verify, right? And we 
build it, the hallmark of conservation success has been the 
voluntary nature. What we are asked to do in the TMDL now is to 
verify what it is that we have actually done and/or say what we 
are going to do is verify. But specific to section 1619, the 
way this is now set up, if a producer, when approached, 
voluntarily provides the information to the conservation 
district or to a third party, they can do so.
    What we are requesting is just a standard procedure, is 
that before any of the information is turned over to either the 
state or to a third party is that those release forms are 
signed. That way there is full acknowledgement.
    In a perfect world, we would prefer that the producer 
handles the file and interfaces with the individual who is 
doing the verification. That is the preferred way. But your 
assumption is that there would be some intermediary in there.
    We have not, again, it is an assumption that we haven't 
confronted the question, if somebody refuses to provide the 
information, what does that do? At this point, that has not 
been contemplated as a default to noncompliance, but it will 
certainly require some additional conversation if somebody is 
not cooperative. But we are not going to make the assumption 
just on the question of the privacy of the information, if it 
is not provided, that it is noncompliance.
    The Chairman. One of the first things they told me around 
here is don't ask a question unless you already know the 
answer. But I don't know the answer to this; I will be up-
front.
    Would that information, then, as it is, obviously, if it is 
held by the producer, the farmer, the rancher, it is protected 
at that point. But even with this release, when that 
information is provided to the state or the conservation 
district, would that then would be vulnerable? Would that be 
information that is, I don't know what word I am looking for, 
but basically through the courts would that have to be released 
to the public?
    Mr. Redding. Well, I can tell you for Pennsylvania, in 
fact, on the release of agricultural plans form, we note that 
once the information is provided, the documents will become 
part of the Commonwealth's public record and will be retained 
as such. There is notice that it is potentially subject to the 
right to know.
    The Chairman. It would be subject for those who are kind of 
shopping around for information for nuisance lawsuits.
    I am pleased to recognize the gentleman from Georgia for 5 
minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Chief Weller, on October 4, the Chesapeake Bay Executive 
Council, including the EPA Administrator, the Governors of 
Virginia, Maryland, New York, Delaware, West Virginia, 
Pennsylvania, and the Mayor of Washington, D.C., and the Chair 
of the Chesapeake Bay Commission will be meeting to identify 
restoration challenges, moving forward. If given a seat at the 
table, what story would you tell about the role of voluntary 
conservation efforts being implemented by producers?
    Mr. Weller. In part, it would be a reflection of what has 
been shared and discussed in the hearing today. But my short 
message would be, really, a request that the commission and 
representatives that appear before the commission, to be 
honest, that we need to celebrate. We have collectively made 
huge progress.
    In part, a lot of the impassioned concern for the health of 
the Bay, there are a lot of folks who are concerned we haven't 
made as much progress as some feel we need, but it is important 
once in a while to actually take stock of how far we have come.
    We should also thank, frankly, agriculture for how much has 
been delivered. As I shared a little bit earlier before you 
were able to arrive, according to the Chesapeake Bay Program, 
agriculture, the agricultural sector, is one of the leading if 
not the leading sector for reducing nonpoint source loadings 
into the Bay itself, particularly for sediment and for 
phosphorous, and also has made good contributions for nitrogen.
    And so it is, really, the holdup in identify, recognize, 
and celebrate success. And then, collectively, we need to 
identify, we are not saying ``mission accomplished.'' We are 
not saying ``job done.'' Then let's jointly focus on what needs 
to happen next.
    And so, unfortunately, there has been a lot of focus on how 
much money you have spent, a lot of folks point at USDA. And 
for those who care about the sustainability of the Bay, if your 
only metric is how much the Federal Government has spent, I 
would submit that is not a very sustainable metric and perhaps 
it is not the best metric. Let's look at, broadly, what is 
science telling us about the trend and direction of the Bay. 
And in general, there are a lot of good points that show 
recovery, a rebound. And, okay. Let's celebrate what is 
resulting in that. It is very complex. There are a lot of 
factors, but you can't forget the men and women, the family 
operations that are trying to make a living off the land that, 
frankly, are putting products on the shelves of our stores, the 
people, the 17 million people that live on the Bay, who depend 
upon the food when they go to the grocery store. And so these 
small business operators want to stay in business. And then, 
frankly, that is the best thing for the Bay is to have those 
lands stay in pasture and in crop and forest. And the best way 
to ensure that landscape stays open and doesn't get sold and 
developed is to ensure it is economic and those business owners 
can make a living.
    That comes back to celebrating success, rewarding progress, 
and then focusing on what still needs to happen and how do we 
jointly leverage and invest in a positive solution that is 
collaborative, as opposed to punitive.
    Mr. Allen. So what you are saying is that there is a joint 
effort here that has been successful. And then what is holding 
us back in continuing this effort?
    Is there some way that we need to build a better 
partnership here? Are there obstructions to building a better 
partnership? Is there any finger-pointing or like, ``Hey, you 
are not doing enough,'' and that sort of thing? How do we do 
this in a joint effort to get to the end result we want?
    Mr. Weller. There are examples. And I am not saying, but it 
is in part human nature, and folks are very concerned and 
passionate, doesn't matter what side of the issue you are on.
    I am not saying there is finger-pointing, but I am saying 
we could better partner together. Notwithstanding the resources 
we get from this Committee, our resources, particularly our 
staff, our field folk, who work very hard, and I am very proud 
of what they do, their time, and they are stressed very thin. 
And right now, they are pretty stressed, given it is the final 
week or 2 of the fiscal year.
    How do we, then, work better with state government? How do 
we work better with districts? How do we work better with 
agribusiness and agricultural consultants? How do we work 
better with loaning institutions? How do we work better with 
water utilities and municipalities? And there are examples of 
this. In part, there is a program this Committee has supported, 
a Regional Conservation Partnership Program, which around the 
country, we have now over 198 projects which are showing you 
can partner together. When you empower local folks to identify 
their priorities and invite NRCS, USDA in that conversation to 
co-invest, you can unlock some really exciting things.
    We have a lot of examples where you can get past the 
finger-pointing and actually get the results on the ground. And 
there are absolutely examples right here on the Chesapeake Bay. 
I don't want to mischaracterize what is happening.
    Mr. Allen. Would the Chairman yield 1 additional minute?
    The Chairman. The gentleman is recognized.
    Mr. Allen. Okay.
    Mr. Secretary, I would like to hear your thoughts on this 
collaborative effort. As you have recognized, the Bay received 
the highest grade for health since 1992 and 30th highest in 3 
decades. Acknowledging that more work remains to be done, would 
you agree that we are on the right course to continue this 
collaborative effort and incentive-based conservation?
    Mr. Redding. Yes. Congressman, thank you for the question.
    Certainly, going forward, the only way to success is 
through this foundation of partnerships and collaboration. We 
have looked at it in state. And while we, as a Department, look 
at our role and responsibilities and relationship with the 
districts, the reality is it is well beyond that. It will take 
the mayors, and it will take the county commissioners, it will 
take everybody looking at what it is that we can do, number 
one.
    I think, to your point about the meeting and looking 
forward a little bit, there are two things. I would say, first, 
as we have stated earlier in the hearing, there is some 
recognition that there has been a tremendous amount of progress 
has to be part of the narrative, right? It can't always be 
about, ``You have more to do,'' right? That is fatiguing. It is 
fatiguing at the farm level. Every time you feel like you are 
making progress. We all understand the cycles of this business 
and the seasons we live in and so forth. You like to hear that 
you are actually making progress. And some of what has been 
noted by the USGS, the University of Maryland, and EPA, that 
has to be front and center and really part of what we talk 
about and how we talk about the Bay, going forward.
    And the third point would be about the question of the 
goals. If it only is, if the simple metric is water quality, 
then that becomes a very limiting conversation, right? If it is 
about the economic viability of, in our case, agriculture or 
the region, then that requires us, then, to look at some of the 
urbanization concerns and the demographics shifts that we have 
seen.
    But I would say it also presents an opportunity to bring 17 
million people as consumers to the conversation. And I don't 
know at this point whether there is really a regional 
appreciation for the delicate balance that is required, but 
also the personal action that is required to get us to the 
reductions, right? It is what we buy. It is where we shop. It 
is what we view in terms of the value of land. I think that can 
be part of the conversation that the chief notes of 
celebration, but it is also becomes part of the narrative.
    Mr. Allen. Okay. Well, thank you, again, for your 
testimony.
    Again, our role here is to facilitate collaboration, and we 
are here to do that for you as best we can do in our role and 
as Members of Congress. And thank you for your efforts, and I 
wish you all the best. And let us know how we can help you.
    Mr. Redding. Very good.
    Mr. Allen. I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    I want to thank our witnesses. It is undeniable the record 
of success that we have accomplished together through voluntary 
conservation.
    I was at a Chesapeake Bay event where the NFWF was 
presenting some grant moneys, some that came from the USDA, 
some came from the EPA, to folks. Actually, Secretary Larson 
was there. We did it, actually, at Penn State, Secretary 
Redding, we did it at the Larson farm at Penn State about a 
month ago or so. And it was out there that I made the comment 
that conservation is a team sport. And it is. And since we have 
embraced conservation not in a punitive way, a top-down 
penalty-imposed system, where we went to a team sport, which 
really reflects voluntary conservation, we have just made 
amazing gains so that water is cleaner. Our phosphates are 
down. Nitrates are down. Sediments are down. The other 
benefits, quite frankly, these voluntary programs create jobs 
for the mediation work that is done, whether it is for 
preparing buffers or stream bank restoration, just all the 
different things that are there. The endangered species that 
actually have been de-listed, which I still find just 
remarkable how well that has worked versus, unfortunately, what 
was tried to be done in the past with a punitive regulatory 
approach by the Fish and Wildlife Service. It just shows the 
benefits and not only has it worked based on pure, great 
statistically documented information, these studies, but it is 
a sustainable trend. It has a trajectory. It is about direction 
and momentum.
    And so I have tremendous concerns of anything that would 
break that teamwork approach and taking our folks, who have 
been great, who have been embraced by farmers and ranchers on 
the fields, and having them exercise police power, I think that 
it is just very threatening to me in terms of the long-term. 
And not only would it, perhaps, stop our trajectory that we 
have now under voluntary conservation, we may actually see 
those gains start to erode.
    I really appreciate both of you being here today to address 
this topic. Pennsylvania and the United States, quite frankly, 
are just tremendously benefited by having you in your 
leadership roles in agriculture. And I appreciate the 
opportunity to continue to work with you on this issue and 
others.
    And under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
witnesses to any questions posed by a Member.
    This Subcommittee on Conservation and Forestry hearing is 
now adjourned.
    Mr. Redding. Thank you.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                          Submitted Questions
Response from Jason Weller, Chief, Natural Resources Conservation 
        Service, U.S. Department of Agriculture *
---------------------------------------------------------------------------
    * There was no response from the witness by the time this hearing 
was published.
---------------------------------------------------------------------------
Questions Submitted by Hon. Bob Goodlatte, a Representative in Congress 
        from Virginia
    Question 1. I regularly hear from producers in the Sixth District 
of Virginia who are concerned with the implementation of EPA's 
Chesapeake Bay Total Maximum Daily Load (TMDL) blueprint and the 
economic impact of its mandates. Do you believe that the TMDL blueprint 
was the best way to achieve a healthy Bay?

    Question 2. Chief Weller, do you share the Committee's view that 
voluntary conservation is the best model for conserving natural 
resources? Why or why not?
Response from Hon. Russell C. Redding, Secretary, Pennsylvania 
        Department of Agriculture
Questions Submitted by Hon. Bob Goodlatte, a Representative in Congress 
        from Virginia
    Question 1. As the Secretary of Agriculture of a Chesapeake Bay 
state, do you believe that EPA has removed or diminished the autonomy 
of the Bay states with its Chesapeake Bay Total Maximum Daily Load 
(TMDL) blueprint? Has EPA respected the Congressionally mandated 
partnership between EPA and the states as was clearly established with 
the Clean Water Act?
    Answer. Under the Federal Clean Water Act, states are required to 
establish a Total Maximum Daily Load (TMDL) for watersheds or stream 
reaches with impaired water quality. In establishing a TMDL, states are 
required to determine existing pollution loads and calculate load 
reductions that they believe will enable them to achieve the water 
quality goals for these impaired waters. Within certain limits, this 
TMDL process is a fairly straight-forward mathematical calculation to 
allocate pollution load reductions based on best available data and 
information regarding nutrient and sediment loads within the targeted 
watershed or stream segment.
    The development of a Watershed Implementation Plan (WIP) by a state 
is required under the TMDL process in order to describe in detail how a 
state will achieve the pollution reduction targets established under 
the TMDL. Throughout the development of the Chesapeake Bay Watershed 
Implementation Plans (WIPs 1 & 2), Pennsylvania has been able to 
develop restoration plans that suited the unique characteristics and 
needs of the Commonwealth.
    While these WIPs and the specific best management practices (BMPs) 
and other pollution control tactics contained in them are subject to 
EPA review and approval, I believe the Commonwealth has been able to 
maintain a high level of autonomy and discretion in selecting the 
specific practices, plans and approaches that will achieve the largest 
nutrient and sediment reductions contained in the Chesapeake Bay TMDL.
    Throughout this TMDL WIP development process, EPA plays a critical 
role to ensure accountability as the states work to both develop and 
implement the plan's provisions. We appreciate the importance of this 
EPA function and value the feedback on our work, however, ultimately 
the choice of how to meet our water quality improvement goals of the 
TMDL and the WIP rests with the Commonwealth.

    Question 2. As you may know, many Members of the House Committee on 
Agriculture have been opposed to the Chesapeake Bay TMDL since its 
inception for fear it would unfairly punish states for not meeting EPA 
mandated goals. Do you believe that Pennsylvania is being unfairly 
scrutinized for its perceived lack of progress in Bay restoration 
efforts? If so, do you believe that this type of strict examination 
could be easily applied to other Bay states? Do you believe that EPA is 
recognizing all conservation activities that farmers and ranchers are 
voluntarily implementing?
    Answer. The Commonwealth fully recognizes that we have an 
obligation under both state and Federal law to protect and restore the 
quality of our streams, lakes and other water bodies. Pennsylvania's 
Clean Streams Law was enacted and established a goal of protecting and 
restoring the waters of our Commonwealth long before the Federal 
Government and EPA became a player in this arena. We also recognize 
that on the Federal level, a large portion of this obligation falls on 
our shoulders as a state. As such, we recognize and understand the high 
level of scrutiny directed towards Pennsylvania by EPA and quite 
frankly, by other states and organizations as well.
    The Chesapeake Bay watershed encompasses approximately 64,000\2\ 
miles of land, with 40% of that land found in the Susquehanna and 
Potomac watersheds. The Susquehanna River alone contributes about \1/2\ 
of all fresh water of the Bay.
    Within Pennsylvania's portion of the watershed are nearly 34,000 
family farm operations which contribute to the water quality challenges 
we face. We believe those outside of PA recognize the significant and 
proportional role that Pennsylvania plays in the restoration of the 
watershed. Others can characterize whether this is fair or unfair--we 
are singularly focused on meeting the water quality expectations placed 
on us.
    In terms of recognizing farmers' voluntary conservation practices, 
the Chesapeake Bay model does allow for reporting of certain 
conservation practices voluntarily installed by our farmers. The 
challenge is that Pennsylvania has previously lacked cost effective 
means to identify, verify and report these voluntary practices. 
Pennsylvania has recently piloted several innovative and promising 
tactics to gather this information (PSU Agricultural BMP Self-
Reporting, NRCS Potomac Watershed Remote Sensing Pilot) that will 
enable us to report voluntarily installed conservation practices. EPA 
has acknowledged the difficulty that Pennsylvania faces in this regard 
and has committed their support to assist the Commonwealth in 
evaluating these new approaches and working to ensure the model is 
capable of accepting this new data

                                  <all>
</pre></body></html>
